Semiannual Report to the Congress                                                             April 1 - September 30, 1996



 THE INSPECTOR GENERAL’S MESSAGE

   This Semiannual Report, covering the period April 1 through September 30, 1996, summarizes the most
   significant accomplishments of the U.S. Department of Labor (DOL), Office of Inspector General (OIG). My
   office has continued to work extensively with the Department, the Congress, and other Federal Agencies to
   ensure the integrity and efficiency of DOL programs, to safeguard the taxpayers’ investment in these programs,
   and to ensure that the American worker is served in the most efficient and cost-effective manner.

   During this reporting period, our audits, investigations, and evaluations have focused on: the effectiveness and
   efficiency of employment and training programs; the Department’s effectiveness in protecting American workers’
   jobs and pensions; fraud in the Department’s health care and unemployment insurance programs; and criminal
   labor racketeering activity by traditional and non-traditional organized crime groups.

   In the past 6 months, the OIG questioned $ 6.7 million in costs charged to the Department and recommended
   that $ 66.3 million be put to better use. In addition, the Department disallowed $ 3.4 million in costs and
   agreed to put $15.9 million to better use, in response to OIG audit recommendations. Additionally, OIG
   criminal investigations resulted in 133 indictments, 93 convictions and $16 million in monetary results.

   Also noteworthy has been our work in assisting agencies to prevent fraud, waste, and abuse in their programs
   and operations. An example of our work in this area is recent financial management training for grantees of the
   School-to-Work Program. The training was designed to ensure their compliance with cost principles and
   prevent improper charges to grants funded with already scarce Federal resources.

   Just as we strive to assist the Department in fulfilling its mission in the most effective and cost-efficient manner,
   we are also committed to improving our own programs and operations. During this reporting period, we have
   continued to streamline field office and administrative operations and cross-train employees as necessary.

   However, over the past few years, the OIG has consistently had to absorb significant across-the-board and
   targeted budget cuts. Up to this fiscal year, we were able to accommodate the cuts through streamlining
   initiatives and conservative fiscal policies, while maintaining an adequate level of operational effectiveness.
   Unfortunately, these cuts are now causing us to review our mandates and reassess our priorities by identifying
   areas where work will need to be reduced or eliminated.

   In particular, these cuts are affecting our ability to conduct financial and compliance audits of grantees and
   contractors, which often result in the identification of millions of dollars in improper charges to the Government,
   as well as our ability to conduct the comprehensive financial audits mandated by the Chief Financial Officers
   Act. From an investigative perspective, we are reducing our pro-active initiatives aimed at not just detecting,
   but also preventing, fraud of DOL programs. Moreover, these cuts have reduced our ability to examine and
   combat organized crime’s influence over unions and entire industries.




                                                           i
Semiannual Report to the Congress                                                       April 1 - September 30, 1996




   I would like to thank my colleagues in the OIG for their efforts to make Government work better. As in the
   past, my staff and I remain committed to working with Secretary Reich and the DOL management team to
   reduce fraud, waste, and abuse of Federal funds; to ensure that DOL programs are effective and cost efficient;
   and to eliminate the influence of organized crime in the American workplace.




   Charles C. Masten
   Inspector General




                                                       ii
Semiannual Report to the Congress                                                            April 1 - September 30, 1996



 SIGNIFICANT CONCERNS

  Selling of UI Wage                In September 1995, the State of Iowa entered into an agreement with
  Records                           a private entity which allows this entity to obtain electronic access to
                                    state unemployment insurance wage reporting records for the purpose
                                    of consumer credit verification. In June 1996, DOL’s Unemployment
                                    Insurance Service issued a Program Letter which essentially permits the
                                    disclosure of wage records if state law permits such disclosure and if
                                    certain conditions related to employee consent, confidentiality, and fees
                                    are satisfied.

                                    The OIG is concerned about this policy and the effect that it may have
                                    on UI program operations. This Program Letter creates a major ex-
                                    ception to the longtime policy of confidentiality of UI wage records and
                                    establishes a precedent which would permit the sale of wage records to
                                    practically any private or commercial entity or individual for virtually any
                                    purpose. The OIG is concerned that:

                                    Selling wage records may consume time and resources and disrupt the
                                    operations of the State agency;

                                        • Selling wage records to private entities may undermine com-
                                        pliance by employers with the UI program. Employers are
                                        required by law to provide wage information to the State, not
                                        to private entities. The Iowa agreement discloses employer
                                        information based upon the consent of the employee;

                                        • The continued confidentiality of these records will be com-
                                        promised once they are released to private entities. In Iowa,
                                        the private entity obtaining the information will be a national
                                        clearinghouse for other lending and credit institutions; and

                                        • There may be an illegal “augmentation of appropriations” if
                                        the fees paid by the private entity to the state exceed the costs
                                        of complying with the requests for information.

                                    Further, the existing Iowa agreement does not even appear to satisfy the
                                    requirements of the Program Letter. For example, the employee “in-
                                    formed consent” form does not give the employee sufficient information
                                    to make a truly informed choice regarding these records. Also, the
                                    Program Letter states that disclosures must be permitted by state law,


                                                         iii
Semiannual Report to the Congress                                                          April 1 - September 30, 1996


                                    and the OIG is not aware of any provision in Iowa’s laws which permits
                                    this type of disclosure to an employee or his/her agent or designee (the
                                    private entity).

                                    The UI system is a joint Federal-State program. Although state wage
                                    records may “belong” to a state in some ways, this system was estab-
                                    lished to facilitate the operation of the UI program, in conjunction with
                                    the imposition of the FUTA tax, and it is administered with Federal
                                    funds.

                                    The OIG is not convinced that the policy found in the Program Letter,
                                    which was effected without public notice and comment, can be recon-
                                    ciled with the intent of Congress in establishing this system for public
                                    purposes and restricting the permissible uses of the wage information.
                                    The OIG intends to pursue this issue vigorously in the upcoming report-
                                    ing period.

  DOL's Foreign Labor               The OIG has a significant concern about the Department’s current poli-
  Certification Programs            cies and procedures for the permanent labor certification (PLC) program
                                    and the temporary H-1B Labor Condition Application (LCA) program.
                                    Audit findings in a recently issued OIG report found that both programs
                                    fail to adequately protect American jobs or wages, as intended by Con-
                                    gress. The audit discovered that the Department’s role amounts to little
                                    more than a paper shuffle for the PLC program and a “rubber stamp-
                                    ing” for LCA program applications.

                                    The PLC program was established by Congress to exclude aliens from
                                    being granted legal status for employment when there are qualified, will-
                                    ing U.S. workers available for jobs. However, our audit found that 74
                                    percent of the applicants were already working for a U.S. employer at
                                    the time of their application for labor certification. Moreover, 99 per-
                                    cent of the aliens with approved certifications were already in the U.S.
                                    at the time that the applications were made. The OIG also found that the
                                    labor market test, which is designed to ensure that there are no qualified
                                    U.S. workers available to fill the positions for which the application has
                                    been filed, is perfunctory at best.

                                    The LCA program was designed by Congress to provide American
                                    businesses with timely access to the “best and brightest” employees in
                                    the international labor market to meet urgent, but generally temporary,
                                    business needs while protecting U.S. workers’ wage levels. Our audit
                                    found that 75 percent of the aliens worked for employers who failed to


                                                         iv
Semiannual Report to the Congress                                                             April 1 - September 30, 1996


                                    adequately document that the wages on the labor condition application
                                    were in fact the proper wages. In addition, out of those employees
                                    whose wages could be determined, 19 percent were being paid below
                                    the prevailing wages specifically required by the program.

                                    Despite annual expenditures of approximately $50 million on DOL’s
                                    foreign labor certification programs, the OIG found that DOL’s role in
                                    the PLC and LCA programs did little to add value to the process of
Liability for Misexpenditures       protecting U.S. workers’ jobs and wages. Since we concluded neither
of Job Training Funds               program meets its legislative intent, the OIG urges Congress to elimi-
                                    nate DOL’s PLC and LCA programs as they currently exist and establish
                                    a new program that corrects the deficiencies identified.

  Job Training Reform               During the 104th Congress, legislation was passed in both the House
                                    and Senate to reform the Nation’s job training system. The conference
                                    agreement on the measure, known as the Workforce and Career De-
                                    velopment Act, contained a “liability” provision which allows States to
                                    use subsequent year program funds to pay back costs incurred by a
                                    local workforce development (WFD) area that have been disallowed
                                    by the Secretary. Under this provision, the Governor may deduct an
                                    amount equal to the disallowed expenditure from the administrative funds
                                    of a subsequent program year allocation of the local WFD area. An
                                    exception is made in cases involving fraud or other criminal activity.
                                    However, even though the expenditures may be expressly not allowed,
                                    it is often difficult to prove that they were incurred with fraudulent intent.

                                    Currently, the Secretary is given discretion to offset disallowed costs, or
                                    -- in the event of willful disregard of the requirements of the Act, failure
                                    to observe standards of administration, or gross negligence -- to require
                                    recipients to repay, with non-Federal funds, amounts disallowed, after
                                    they have had an opportunity for a hearing.

   Financial Reporting              The OIG is concerned that, if enacted, this provision may very well
                                    leave the Federal dollars allocated to the States vulnerable to waste,
                                    abuse, and mismanagement, thereby negating intended fiscal account-
                                    ability. Moreover, there will be little deterrence against misspending
                                    already-scarce program funds.

                                    Moreover, if the liability provision is enacted, there will be a real ques-
                                    tion as to the value of conducting any financial audits of local providers
                                    (which would receive 75 percent of the total funds allocated to employ-
                                    ment and training activities) because of the Governors’ authority to pay
                                    back the disallowances with program funds.

                                                          v
Semiannual Report to the Congress                                                            April 1 - September 30, 1996


                                    The OIG is also concerned that, while the measure requires States to
                                    report performance measures and goals, there are no requirements for
                                    the States to submit financial reports to the Federal Government. The
                                    OIG is of the opinion that the financial information, together with the
                                    performance reports, will better enable the Department and the Con-
                                    gress to ascertain how the Federal dollars allocated to the states have
                                    been spent and to assess the programs’ return on taxpayers’ invest-
                                    ment, as required by the Government Performance and Results Act of
                                    1993.

  DOL Compliance With               While the Workforce and Career Development Act was not enacted,
  the CFO Act                       the OIG recommends that any future attempt to reform the job training
                                    system ensure adequate fiscal accountability and reporting.

                                    The Chief Financial Officer (CFO) is intended to be the focal point of
                                    financial management in the Department. The CFO establishes poli-
                                    cies, provides guidance for financial management operations, and
                                    provides technical assistance in certain situations.

                                    As we have previously reported, the Department is still not in compli-
                                    ance with the CFO Act due to certain organizational aspects of the
                                    Department’s financial management. The Department’s current finan-
                                    cial management organizational structure separates financial authority
                                    from management responsibilities. The financial management functions
                                    of the five major agencies remain decentralized and under the direct
                                    control of their respective Assistant Secretaries rather than the CFO.
                                    Therefore, the CFO does not have the requisite authority to enforce
                                    financial management policy.

                                    The OIG is concerned because the current financial management struc-
                                    ture could adversely impact Department-wide accounting and financial
                                    reporting in terms of quality, consistency, and timeliness of financial data.

                                    As a result of our work in this area, Congress recognized the need for
                                    ensuring that the CFO has both the responsibility and authority to man-
                                    age the Department’s finances by including provisions in the DOL’s Fiscal
                                    Year 1997 Appropriation to that end.

                                    Accordingly, the OIG urges the Department to revise its financial man-
                                    agement structure so as to comply with both the CFO Act and the
                                    departmental management provisions of the DOL appropriation stat-
                                    ute.


                                                          vi
Semiannual Report to the Congress                                                          April 1 - September 30, 1996


   Audits of Pension Plan           During this reporting period, the OIG completed an audit which revisits
   Assets By Public                 the OIG’s concerns regarding the safety of America’s pension plan as-
   Accountants Are Still            sets. In 1989, the OIG conducted a review of the Employee Retirement
   Inadequate                       Income Security Act annual audit process. This 1989 review identified
                                    that: 1) audits of employee benefit plans did not adequately test trans-
                                    actions or plan assets; 2) independent public accountant (IPA) audits
                                    did not consistently meet Generally Accepted Auditing Standards
                                    (GAAS); 3) the Pension and Welfare Benefits Administration (PWBA)
                                    was not enforcing existing ERISA requirements that the IPAs meet pro-
                                    fessional standards; and 4) IPA audits were not disclosing information
                                    to plan participants or rendering opinions on information accompanying
                                    a plan’s financial statements, as required by ERISA.

                                    A major concern in the 1989 report was that a loophole in ERISA’s
                                    reporting requirements allowed a major portion of plan assets to be
                                    exempt from review by an IPA. The loophole in ERISA allows certain
                                    audits of plan assets to be limited in their scope. The limited scope
                                    audit provision of ERISA is an important contributor to the danger of
                                    incomplete auditing of benefit plan assets. The limited scope audit pro-
                                    vision exempts from review by an auditor all benefit plan funds that
                                    have been invested in institutions already regulated by Federal or State
                                    Governments, such as savings and loans, banks, or insurance compa-
                                    nies. At the time ERISA was passed, it was assumed that all funds
                                    invested in those regulated industries were being adequately audited.

                                    Thus, the situation exists in which the protection of pension and welfare
                                    plan assets hinges on provisions in the law which allows for incomplete
                                    reporting on the financial status of the plans. Therefore, according to
                                    the OIG’s findings, the intent of Congress to ensure adequate enforce-
                                    ment, in large part through sound, meaningful reporting and disclosure,
                                    has not been achieved. In 1992, the General Accounting Office issued
                                    a report supporting the OIG’s findings from 1989. The OIG’s most
                                    recent OIG audit again points to the inadequacies of IPA audits submit-
                                    ted to the Department.

                                    The OIG is concerned that the failure to adequately review plans opens
                                    the door for fraud and abuse. Weak or non-existent internal controls
                                    by the plans enable sponsors and employers to defraud the plans by
                                    understating their required contributions. Inadequate internal controls
                                    of excessive administrative costs can result in situations where large
                                    portions of a sponsor’s contributions are siphoned off to “consultants.”
                                    Inadequate review by IPAs of the selection of service providers can


                                                        vii
Semiannual Report to the Congress                                                           April 1 - September 30, 1996


                                    result in potential conflicts of interest and kickback schemes that are all
                                    too common in the benefit-plan field. The failure of IPA reports to
                                    verify the existence of plan investments and ensure the accuracy of cur-
                                    rent valuations and the degree of risk can lead to plan failures.

                                    Based on the conclusions from these numerous reports, the OIG con-
                                    tinues to strongly recommend that ERISA be amended to repeal the
                                    limited scope audit provision. Such a change will be a major step that
                                    will involve public accountants in the kind of active role that ERISA
                                    originally intended them to take -- that of offering a first line of defense
                                    to plan participants by apprising them of potential problems with their
                                    benefit plans. In addition, the OIG recommends that ERISA be further
                                    amended to require IPAs to report serious ERISA compliance viola-
                                    tions that they encounter during their reviews directly to the Secretary of
                                    Labor.




                                                         viii
  Semiannual Report to the Congress                                                                                                         April 1 - September 30, 1996




    TABLE OF CONTENTS

THE INSPECTOR GENERAL’S MESSAGE .............................................................................................................. i

SIGNIFICANT CONCERNS ......................................................................................................................................... iii

SELECTED STATISTICS
    April 1 - September 30, 1996 ................................................................................................................................................. 1

OFFICE OF AUDIT ......................................................................................................................................................... 2
Overview .................................................................................................................................................................................... 2

JOB PROTECTION .................................................................................................................................................................. 3
   DOL's Foreign Labor Certification ..................................................................................................................................... 3

JOB TRAINING ........................................................................................................................................................................ 8
  JTPA Title IV ......................................................................................................................................................................... 8
    Job Corps Program .............................................................................................................................................................. 8
    Native Americans Program ................................................................................................................................................ 11
    The Migrant and Seasonal Farmworkers Program ............................................................................................................ 13

  Defense Conversion Adjustment Program .......................................................................................................................... 14
  School-to-Work Opportunities Program ............................................................................................................................ 18
  Senior Community Service Employment Program .......................................................................................................... 21

INCOME SECURITY ............................................................................................................................................................. 22
   Full Scope Audits of Employee Benefit Plans .................................................................................................................. 23

FINANCIAL AND PERFORMANCE REPORTING UNDER THE CFO ACT ................................................................... 24

AUDIT RESOLUTION ........................................................................................................................................................... 27

AUDIT STATISTICS ............................................................................................................................................................... 29

OFFICE OF INVESTIGATIONS ........................................................................................................ 30
Overview .................................................................................................................................................................................. 30

Division of Labor Racketeering ............................................................................................................................................. 30
    Immigration ....................................................................................................................................................................... 30
    Labor- Management Relations ......................................................................................................................................... 31
       Civil RICO Actions ....................................................................................................................................................... 32
    Employee Benefit Plan Investigations .............................................................................................................................. 39
       Bogus Labor Unions ...................................................................................................................................................... 41

Division of Program Fraud .................................................................................................................................................... 44
    Medical Provider Fraud .................................................................................................................................................... 44
    Claimant Fraud .................................................................................................................................................................. 46
Semiannual Report to the Congress                                                                                            April 1 - September 30, 1996



 SELECTED STATISTICS

Office of Audit

Reports issued on DOL activities ......................................................................................................... 198
Total questioned costs ............................................................................................................. $ 6.7 million
Dollars resolved ..................................................................................................................... $ 5.6 million
  Allowed ................................................................................................................ $ 2.2 million
  Disallowed ........................................................................................................... $ 3.4 million
Funds Recommended to be Put to Better Use ....................................................................... $ 66.3 million
Disallowed costs recovered ...................................................................................................... $ 1.6 million



Office of Investigations

Division of Program Fraud:

Cases opened ........................................................................................................................................ 210
Cases closed .......................................................................................................................................... 187
Cases referred for prosecution ................................................................................................................. 81
Cases referred for administrative/civil action ........................................................................................... 95
Indictments .............................................................................................................................................. 58
Convictions ............................................................................................................................................. 60
Recoveries, cost efficiencies, restitutions, fines/penalties,
  and civil monetary actions ................................................................................................... $ 7.0 million

Division of Labor Racketeering:

Cases opened .......................................................................................................................................... 50
Cases closed ............................................................................................................................................ 59
Indictments .............................................................................................................................................. 75
Convictions ............................................................................................................................................. 33
Debarments ............................................................................................................................................. 27
Fines, restitutions, forfeitures, and civil monetary actions ....................................................... $ 9.0 million

NOTE: The Office of Investigations conducts criminal investigations of individuals which can lead to prosecutions ("convictions") by criminal
complaints, warrants, informations, indictments, or pre-trial diversion agreements. Successful prosecutions may carry sentences such as fines,
restitutions, forfeitures, or other monetary penalties. The Office of Investigations' monetary results also include administrative and civil
actions which are further detailed and defined can be found on page 61 of this report.




                                                                             1
Semiannual Report to the Congress                                                      April 1 - September 30, 1996




 OFFICE OF AUDIT
  OVERVIEW                          The Office of Inspector General’s mission is to 1) promote economy,
                                    efficiency and effectiveness in the administration of Department of
                                    Labor programs; and 2) prevent and detect fraud, waste, abuse, and
                                    mismanagement in those programs.

                                    Through audits, the OIG assists DOL management in 1) reexam-
                                    ining programs and processes with a view toward improving the
                                    way work is done; and 2) increasing managerial flexibility and ac-
                                    countability, shifting from accountability for following rules to
                                    accountability for achieving results.

                                    The OIG seeks to determine through the audit process whether rea-
                                    sonable value is obtained for the taxpayer dollars spent on current
                                    activities and functions and strives to identify and share successful
                                    and cost/beneficial ideas and methods with DOL agencies.

                                    During this reporting period, 198 audits of program activities, grants
                                    and contracts were issued. Of these, 40 were performed by OIG
                                    auditors or CPA auditors under OIG contract. The remaining 158
                                    were single audits performed by state and local government auditors
                                    hired by DOL grantees and subrecipients. A list of these audit re-
                                    ports is contained in the Audit Schedules section of this report.



  JOB PROTECTION                    The U.S. Department of Labor (DOL) serves American workers
  AND TRAINING,                     and the many activities of the Department affect virtually every fam-
  AND INCOME                        ily in our country. DOL’s principal mission is to help working people
  SECURITY FOR                      and those seeking work. DOL’s responsibilities include: protecting
  THE AMERICAN                      employees’ wages, health and safety and employment; protecting
                                    the pension rights of working people and retirees; promoting equal
  WORKER
                                    employment opportunity; administering job training, unemployment
                                    insurance and workers’ compensation programs; strengthening free
                                    collective bargaining; and collecting, analyzing and publishing la-
                                    bor and economic statistics.

                                    During this reporting period, the Office of Audit focused on some of
                                    the key issues affecting American workers today: job protection, job
                                    training and income security.


                                                      2
Semiannual Report to the Congress                                                       April 1 - September 30, 1996



                                    The Employment and Training Administration (ETA) administers a
  JOB PROTECTION                    number of statutes related to employment and training services for
                                    the unemployed and underemployed, employment security for work-
                                    ers, and other programs that are directed to the employment needs
                                    of U.S. workers. The Department administers certain labor-related
                                    immigration programs which are designed to increase the Nation’s
                                    competitiveness while protecting American workers’ jobs and wages.
                                    The OIG recently completed an audit of two of the Department’s
                                    immigration programs, which are carried out primarily by ETA with
                                    assistance from the ETA-funded State Employment Security Agen-
                                    cies (SESA).

                                    DOL’ s Foreign Labor Certification Programs

  The System Is Broken              The OIG audited the Department’s role in the employment-based,
  and Needs to Be Fixed             permanent labor certification (PLC) and the temporary H-1B Labor
                                    Condition Application (LCA) immigration programs. Under these
                                    two programs, ETA has responsibility for certifying certain employ-
                                    ers’ PLC applications and LCAs before aliens can obtain visas to
                                    legally work in the U.S. Our audit objective was to determine
                                    whether ETA policies and procedures adequately protected U.S.
                                    workers’ jobs in accordance with the Immigration Act, as amended.

                                    In our opinion, while ETA is doing all it can within its authority, the
                                    PLC and LCA programs do not protect U.S. workers’ jobs or wages
                                    and, therefore, neither program meets its legislative intent. DOL’s
                                    role amounts to little more than a paper shuffle for the PLC program
                                    and a “rubber stamping” for LCA program applications. As a re-
                                    sult, annual expenditures of approximately $50 million for DOL’s
                                    foreign labor certification programs do little to “add value” to the
                                    process of protecting American jobs and wages. Specifics on each
                                    program follow.

    The PLC Program Does            The PLC program is employment-based and is intended to exclude
    Not Meet Its Legislative In-    aliens who seek admission to the U.S., or status as an immigrant, for
    tent of Excluding Foreign       employment purposes when qualified, willing U.S. workers are
    Workers When Qualified,         available for jobs. However, we found that the program does not
    Willing U.S. Workers Are        currently protect U.S. workers’ jobs. Instead, the PLC program
    Available
                                    allows aliens to immigrate, based on their attachment to a specific
                                    job, and then shop their services, in competition with equally or
                                    more qualified U.S. workers without regard to prevailing wages.



                                                      3
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



                                    For the 24,150 aliens for whom PLC applications were certified,
                                    we determined:

                                        • 99 percent were in the U.S. when the application was
                                        filed.

                                        • 74 percent were working for the U.S. employer at the
                                        time of application.

                                    Of these, 16 percent were not legally eligible to work for U.S. em-
                                    ployers:

                                                      8 percent had pleasure visas.
                                                    • 1 percent had business visas.
                                                    • 4 percent were in the U.S. illegally.
                                                    • 3 percent had other visas.

                                        • 11 percent never worked for the petitioning employer
                                        after adjustment to permanent resident status although
                                        the only reason for obtaining the green card was that
                                        the employers claimed that they had a job vacancy and
                                        that no qualified, willing U.S. workers were available.

                                    In addition, we determined that, of the aliens who actually worked
                                    for the petitioning employer after adjustment to permanent resident
                                    status, 17 percent had left that employer within 6 months after their
                                    status was adjusted and a third (includes the 17 percent) had left
                                    within 1 year.

                                    As part of the labor certification process, the employer must con-
                                    duct a test of the labor market to determine that there are no qualified,
                                    willing U.S. workers available for employment in a job for which
                                    an application has been made. Using two different audit approaches,
                                    we determined the PLC labor market test was perfunctory at best.

                                    First, for the 12 states in our sample, we analyzed all SESA job
                                    orders related to alien certification applications, referrals, and place-
                                    ments for a 6-month period. Of the 28,682 applicants referred on
                                    10,631 job orders during the period, only 5 (0.02 percent) were
                                    hired.




                                                       4
Semiannual Report to the Congress                                                      April 1 - September 30, 1996



                                    Second, we evaluated the results of the labor market test for the 600
                                    cases included in our statistically-projectable random sample of per-
                                    manent labor applications certified during the audit period. Our
                                    results were projected to the universe of 23,403 cases during the
                                    audit period that required a test of the labor market.
                                    We found that:

                                        • 23 percent (5,392) had no resumes in response to adver-
                                        tising and no SESA referrals.

                                        • 77 percent (18,011) resulted in 136,367 applicants and
                                        only 104 hires, a 0.08 percent hire rate. These 104 hires
                                        were incidental to the aliens being hired; i.e., the specific
                                        jobs advertised were still filled by the aliens.

   The LCA Program Is               The LCA program is intended to provide U.S. businesses with timely
   Being Manipulated                access to the “best and the brightest” in the international labor mar-
   Beyond Its Intent of
   Providing Employers the          ket to meet urgent, but generally temporary, business needs while
   Best and Brightest in the        protecting U.S. workers’ wage levels. We found that the program
   International Labor              does not always meet this purpose. Instead, it serves as a probation-
   Market While Protecting
   the Wage Levels of U.S.          ary try-out employment program for illegal aliens, foreign students,
   Workers                          and foreign visitors to determine if they will be sponsored for per-
                                    manent status.

                                    We determined that:

                                        • 4 percent of the aliens in the LCA program were treated
                                        as independent contractors by their LCA employers,

                                        • 6 percent were contracted out, by their LCA employers,
                                        to other employers,

                                        • 75 percent worked for employers who did not adequately
                                        document that the wage specified on the LCA was the
                                        proper wage, and

                                        • 19 percent were paid below the wage specified on the
                                        LCA, when we could determine the actual wage paid.

                                    Some LCA employers use alien labor to reduce payroll costs either
                                    by paying less than the prevailing wage to their alien employees or
                                    treating these aliens as independent contractors, thereby avoiding


                                                      5
Semiannual Report to the Congress                                                        April 1 - September 30, 1996



                                    related payroll and administrative costs. Other LCA employers are
                                    “job shops” whose business is to provide H-1B alien contract labor
                                    to other employers.

  Examples of Abuses of             The only protection the LCA program supposedly provides U.S.
  the PLC and the LCA               workers is that the employer is required to pay the alien the prevail-
  Programs                          ing wage for the specialty occupation. Yet, with the increasing use
                                    of LCA workers and employers’ failure to either document or pay
                                    the prevailing wage, the prevailing wage may be eroded over time.

                                    During the audit fieldwork, the OIG visited the employers’ work
                                    sites, interviewed the employers, and examined alien certification
                                    documents. We identified instances where the PLC and LCA pro-
                                    cesses were abused. For example:

                                        • An employer petitioned for an alien’s labor certification
                                        to work as a general manager for his tailoring supply op-
                                        eration. In the meantime, the alien was hired illegally and
                                        put in charge of reviewing the applications received in re-
                                        sponse to the employer’s job advertisement and of con-
                                        ducting interviews. Not surprisingly, the 11 individuals who
                                        applied for the job were found to be unqualified.

                                        • An employer filed an application for a machine operator
                                        in a shop and certified that the alien resided in Peru, despite
                                        the fact that the employee had been working for the em-
                                        ployer for several years. An attorney hired by the alien
                                        handled all the details including advertising the job and re-
                                        viewing 101 resumes. However, without so much as an
                                        interview with the employer, all applicants were rejected as
                                        unqualified. The alien’s pay ranged from $9.50 to $11.50
                                        per hour, as opposed to the advertised wage of $14.50 per
                                        hour.

                                        • An alien working as a volunteer deacon requested that
                                        the church sponsor him for permanent resident status. At
                                        the time of the application, the alien was already working
                                        illegally for another employer under an F-1 student visa.
                                        The alien’s attorney processed all the paperwork and the
                                        alien paid all the fees. Upon adjusting to permanent resi-
                                        dent status, the alien continued his paid employment with
                                        the other employer and continued as a volunteer deacon.
                                        Clearly, the church never intended to employ him.


                                                      6
Semiannual Report to the Congress                                                      April 1 - September 30, 1996



                                       • A doctor petitioned for a foreign labor certification for an
                                       alien with the same last name as the doctor’s partner, pre-
                                       sumably to avoid having the same last name for both the
                                       petitioner and alien. Six U.S. applicants applied for this job
                                       but all were rejected. The alien became a permanent U.S.
                                       resident but never worked for the petitioner because the job
                                       did not exist.

                                       • An alien worked for his brother as a project engineer while
                                       in the H-1 temporary nonimmigrant status program. He was
                                       never on the official payroll but instead was paid as an in-
                                       dependent contractor. The brother then petitioned for a labor
                                       certification that began the process of obtaining permanent
                                       resident status for his brother. Upon becoming a legal per-
                                       manent resident of the U.S., the alien quit working for his
                                       brother and started his own business. The position the alien
                                       held was never refilled.

                                       • An alien has repeatedly applied for, and obtained, H-1/H-
                                       1B visas over the last several years to work in the United
                                       States. However, the OIG found no evidence that the part-
                                       ners listed in the original petition as the employers, nor any
                                       of the individuals who signed subsequent requests for certi-
                                       fications, ever existed. Moreover, the petitioning employer
                                       was not registered with the pertinent unemployment insur-
                                       ance agencies. Furthermore, the state’s incorporation records
                                       show the alien incorporated the business as sole owner. The
                                       alien continues to work in the U.S. with an H-1B visa.

                                       • A cosmetics store owner, who was not a citizen or a per-
                                       manent resident alien himself, sponsored an alien who had
                                       been working for him for 2 years. The request was based
                                       on the alien’s knowledge of the particular line of French
                                       cosmetics. After being granted an authorization for perma-
                                       nent employment, the alien petitioned for permanent resident
                                       status for herself, her two sons, and her husband, who turned
                                       out to be the owner of the store that sponsored her.

   Legislative Reforms Needed       In our opinion, the PLC and the LCA programs are easily manipu-
                                    lated and do not protect American workers’ jobs and wages as
                                    intended. Therefore, we recommended that the Assistant Secretary
                                    for Employment and Training work with the Secretary and the Con-
                                    gress to:


                                                     7
Semiannual Report to the Congress                                                      April 1 - September 30, 1996



                                        • eliminate DOL’s PLC and LCA programs as they cur-
                                        rently exist;

                                        • if it is decided that the program should be continued, es-
                                        tablish a new program that corrects the deficiencies
                                        identified; and

                                         • ensure DOL’s costs are fully recovered by charging user
                                        fees to the employers who benefit from the programs, if
                                        DOL has a role in the redesigned program.

                                    In responding to the draft audit report, ETA stated its long-standing
                                    concerns with the program and agreed that these foreign labor pro-
                                    grams do not protect U.S. workers’ jobs or wages. ETA indicated
                                    that: (1) DOL and the Administration have outlined several legisla-
                                    tive reforms to address serious deficiencies in both programs and
                                    (2) if Congress fails to enact immigration reform to change the cur-
                                    rent system, ETA intends to make as many administrative and
                                    regulatory improvements as can be implemented under current law
                                    to strengthen the programs. (Report No. 06-96-002-03-321; issued May
                                    22, 1996)



                                    The Job Training Partnership Act (JTPA) is the largest training pro-
  JOB TRAINING                      gram administered by DOL. The purpose of JTPA is to prepare
                                    youths and adults facing serious barriers to employment for partici-
                                    pation in the labor force, by providing them with training and other
                                    services that will result in increased employment and earnings.

                                    THE JOB TRAINING PARTNERSHIP ACT (JTPA)

                                    JTPA Title IV authorizes employment and training programs for the
                                    Job Corps, Veterans’ Employment, Native Americans, Seasonal
                                    Farmworkers, and other activities and programs collectively known
                                    as “National Programs.”

                                    Job Corps Program

                                    The Jobs Corps program is authorized under Title IV of the JTPA
                                    and is funded at almost $1 billion per year. The Job Corps is a
                                    residential education and training program to assist disadvantaged
                                    youth to become more employable and productive citizens. Since


                                                     8
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



                                    1964, Job Corps has served more than 1.77 million young men and
                                    women. There are currently 111 Job Corps centers located through-
                                    out the country.

  Adopting Best Practices           In a cooperative effort with the Office of Job Corps, the OIG con-
  of High Performing                ducted a survey to identify best practices currently used at high
  Centers Can Improve               performing centers. Job Corps’ Best Practices are defined as those
  Job Corps’ Overall                practices, processes and systems that have a positive effect on operat-
  Performance                       ing efficiency or performance. We also surveyed outreach, admissions
                                    and placement contractors to identify their impact on successful center
                                    performance. The survey also addressed the oversight and support
                                    activities of corporate management, regional offices, Job Corps admin-
                                    istrators of the U.S. Departments of Agriculture and Interior, and the
                                    Job Corps’ national office.

                                    At every level, from the national office of Job Corps to the centers
                                    themselves, the OIG found “common threads,” or “best practices” that
                                    helped improve the students’ opportunities for success. Having these
                                    key best practices in place at the center level was the common thread
                                    that most often ensured effective accomplishment of the Job Corps
                                    mission. It is important to note that no single practice alone will ensure
                                    success.

    Suggested Improvements          Across the board, we found that high performing centers had sound
                                    management practices that included:

                                        1. Establishing an outcome-oriented program that emphasized
                                        attainable goals.

                                        2. Conveying a management philosophy that accomplishment
                                        of those goals was a high priority.

                                        3. Executing an excellent basic program of academic educa-
                                        tion, vocational and social skills training.

                                        4. Encouraging an atmosphere of teamwork between students,
                                        staff, and the local community.

                                        5. Establishing accountability over performance through:

                                            - a tracking, monitoring and reporting system,
                                            - identifying problems; and
                                            - taking prompt corrective action.


                                                       9
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                        6. Instilling in staff a dedication to meeting students’ needs.

                                        7. Providing training to equip staff with the skills they need to
                                        accomplish the desired program results.

                                        8. Maintaining effective communication between all the orga-
                                        nizations dedicated to the Job Corps mission.

                                    As part of our survey, we asked individuals involved in the program--
                                    from Regional Office staff and Center Directors to the students
                                    themselves--to provide suggestions on how Job Corps could be im-
                                    proved. Their suggestions and OIG observations included the following:

                                        1. Reallocate travel and administrative resources at the regional
                                        offices so that project managers can increase their monitoring
                                        efforts and regional directors can fill vacant positions. Re-
                                        gional staffing levels are decreasing, while the number of Job
                                        Corps centers is increasing. It is evident that as the number of
                                        centers grows and student enrollment increases, it will become
                                        even more difficult for regional office staff to effectively over-
                                        see center operations.

                                        2. Review the present allocation of resources to the screening
                                        and placement functions. Many feel these functions do not
                                        receive adequate resources.

                                        3. Establish a unique focus and different performance stan-
                                        dards for younger Job Corps students (ages 16 & 17). The
                                        overall consensus was that younger students have different
                                        needs and are harder to serve than older students.

                                        4. Revise the regional director performance standards to in-
                                        clude all areas for which the centers are evaluated. Existing
                                        standards exclude several key areas of center performance.

                                    Job Corps noted that the report contained an accurate reflection of
                                    Job Corps policies and that the Office of Job Corps is continuously
                                    embarking on program enhancements which will result in improved ser-
                                    vice delivery to the youth served. (Report No. 12-96-013-03-370; issued
                                    June 7, 1996)




                                                      10
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



  $520,938 in Costs By              EVKO Productions, Inc., a for-profit public relations firm, was awarded
  Public Relations Firm             a contract under section 8(a) of the Small Business Act for the purpose
  Questioned                        of implementing a 5-year marketing and communications campaign to
                                    publicize to needy youth, especially females, the opportunities offered
                                    by the Job Corps Program. The primary purpose of the contract was
                                    to generate an advertising strategy and creative approaches for radio,
                                    television, and print products. The OIG audited the costs claimed by
                                    EVKO for the entire period of the contract, February 6, 1990 through
                                    November 30, 1992. As a result of our audit findings, the OIG ques-
                                    tioned $520,938, or 54 percent, of the $965,316 of contract
                                    expenditures claimed by EVKO. The preponderance of questioned
                                    costs resulted from (a) unsupported indirect costs; (b) unsupported di-
                                    rect costs; and (c) unallowable consultant costs.

                                    EVKO did not provide comments on the draft report or supporting
                                    documentation for the questioned costs. (Report No. 18-96-006-07-735; is-
                                    sued April 12, 1996)


                                    Native American Programs

                                    JTPA Title IV-A grants are designed to improve the economic well-
                                    being of Native Americans (Indians, Eskimos, Aleuts, and Native Ha-
                                    waiians) by providing job training and employment-related services to
                                    eligible individuals. In fiscal year 1996, the JTPA Native American
                                    Program was funded at $52.5 million.

  Grantee Makes Excessive           The Department granted the Native American Educational Services
  Cash Drawdowns;                   College (NAES), a nonprofit organization incorporated in the State of
  ETA Does Not Renew                Illinois, a total of $1,992,609 for the purpose of operating a Title IV-
  Grant                             A program for the period July 1, 1993 to June 30, 1996. The OIG
                                    performed a limited scope financial audit of program operations for the
                                    period July 1, 1994 through December 31, 1995, and questioned
                                    $97,074 of over $1 million claimed by NAES for reimbursement. More
                                    importantly, the audit found that NAES made premature and excessive
                                    cash drawdowns through the Federal letter-of-credit Payment Man-
                                    agement System (PMS).

                                    The auditors determined that during the first 6 months of program year
                                    1995, NAES drew down 98.8 percent of its available grant funds. The
                                    average excess cash drawdown for the 6-month period was almost
                                    $160,000 a month. NAES used the excess JTPA funds to pay institu-
                                    tional debts unrelated to the JTPA program, a situation which did not
                                    occur in the preceding program year.

                                                           11
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                    The OIG questioned imputed interest of $5,611 on excess cash draw-
                                    downs through December 31, 1995, and recommended the Grant
                                    Officer calculate and disallow the imputed interest for the remaining 6
                                    months of the grant.

                                    The majority of questioned costs were for improperly charged instruc-
                                    tor salaries and unreasonable tuition charges for JTPA students.

                                    Our fieldwork ended on May 10, 1996, and we notified the grant of-
                                    ficer of our findings. As a result, in June 1996, the Grant Officer issued
                                    a Final Determination affirming his decision that NAES should not be a
                                    JTPA Title IV-A grantee for program year 1996, and provided notifi-
                                    cation of 21 days to request an administrative hearing. NAES has
                                    requested a hearing before an Administrative Law Judge on the deter-
                                    mination of the Grant Officer. (Report No: 18-96-021-03-355; issued August
                                    28, 1996)


  $161,195 of Claimed               The California Indian Manpower Consortium, Inc. (CIMC) is a non-
  Costs Questioned at               profit corporation which serves the Native American community
  CIMC                              throughout California. A significant portion of the assistance offered
                                    by CIMC is employment and training services provided through JTPA
                                    grants awarded by the Department of Labor. The OIG audited two
                                    grants, one (Title II-B) for the period October 1993 through Septem-
                                    ber 1994, the other (Title IV-A) for July 1994 through June 1995. We
                                    also audited CIMC’s final indirect cost rate for the year ended June 30,
                                    1994 (fiscal year 1994). Finally, we conducted a performance review
                                    of CIMC’s Title II-B performance for program year 1993 and Title IV-
                                    A performance for program year 1994. Of about $3.4 million of JTPA
                                    funds expended by CIMC during the audit periods, the OIG ques-
                                    tioned $161,195.

                                    The majority of questioned costs resulted from the fact that CIMC
                                    charged the entire cost of a tribal census project to its JTPA Title IV-A
                                    grant. The OIG (a) determined the results of the census were benefi-
                                    cial to all CIMC programs; (b) concluded the costs of the census were
                                    improperly charged to the JTPA grant, and should have been allocated
                                    to all CIMC programs in proportion to the benefits received from the
                                    census; (c) reallocated the census project costs to all CIMC programs
                                    based on the ratio of program salaries and benefits to CIMC salaries
                                    and benefits, and; (d) based on the reallocation, questioned $101,720
                                    improperly charged to the JTPA Title IV-A grant.



                                                      12
Semiannual Report to the Congress                                                          April 1 - September 30, 1996


                                    We reviewed the indirect cost pool and found costs included in the pool
                                    were either unallowable, unallocable, or required reclassification. These
                                    items affected the indirect cost rate, and subsequently, the indirect costs
                                    claimed. Applying the audit-recommended rate resulted in $30,118 of
                                    questioned indirect costs.

                                    Other questioned costs resulted from wages paid to Community Ser-
                                    vice Employment participants which exceeded the authorized limit
                                    ($13,236), unsupported or excessive travel costs ($9,012), and for
                                    other varied reasons. While acknowledging the audit findings were
                                    generally accurate, CIMC took exception with all questioned costs.
                                    The program performance audit did not result in either findings or ques-
                                    tioned costs. (Report No: 18-96-022-03-355; issued September 5, 1996)


                                    Migrant and Seasonal Farmworker Program

                                    JTPA Title IV also authorizes the Migrant and Seasonal Farmworker
                                    Program which is designed to address the special employment and training
                                    needs of migrant and seasonal farmworkers. This program was funded
                                    at $69 million in 1996.

  Puerto Rico: ETA                  As reported in our previous Semiannual Report, in February 1996, the
  Initiates Corrective              OIG issued an audit report on the Commonwealth of Puerto Rico’s
  Action Plan In Response           JTPA Title IV Migrant and Seasonal Farmworker Program (MSFP)
  to OIG Audit                      covering the period July 1991 to March 1995. While the OIG ques-
                                    tioned $1.7 million out of total program expenditures of $13.5 million,
                                    equally important was the conclusion that program performance was
                                    extremely poor. As examples, an investment of $5 million in classroom
                                    training resulted in only 17 placements in training-related employment
                                    which lasted over 90 days, and an investment of $1.4 million in on-the-
                                    job training in agricultural employment resulted in “training” that was of
                                    minimal or no value to participants. Moreover, the OIG determined the
                                    Commonwealth’s welfare program and another Federal job training
                                    program designed to assist economically disadvantaged individuals had
                                    the unintended effect of making it more difficult for the MSFP to achieve
                                    its overall objectives.

                                    During this semiannual reporting period, in response to the OIG find-
                                    ings, ETA sent a corrective action team to work with the Puerto Rico
                                    Department of Labor and Human Resources to restructure the Title IV
                                    program. This effort resulted in a detailed corrective action plan which


                                                       13
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                    addressed systemic weaknesses in the program delivery system. The
                                    plan contained specific goals and milestones, examples of which are (1)
                                    the development of permanent linkages with the Commonwealth De-
                                    partments of Social Services and Education in order to reduce the costs
                                    of classroom training and remove the barriers to job placements, and
                                    (2) the development and inclusion of qualitative standards in OJT and
                                    classroom training contracts. The plan requires the Commonwealth to
                                    report monthly to ETA on the progress achieved in implementing the
                                    goals and milestones. ETA reports that goals and milestones are gener-
                                    ally on target.

                                    ETA also issued an Initial Determination on July 8, 1996, upholding all
                                    audit findings and disallowing the entire $1.7 million questioned by the
                                    OIG. The ETA Grant Officer also informed the Commonwealth that its
                                    MSFP was being conditionally funded beginning with program year
                                    1996 on the condition that it adhere to the terms of the corrective action
                                    plan. The corrective action team plans a January 1997 final review to
                                    evaluate the status and impact of the corrective action and to provide a
                                    recommendation to ETA’s Assistant Secretary on whether to continue
                                    conditional or unconditional funding with the Commonwealth, or initiate
                                    a competitive process for the grant.


  DEFENSE                           The Defense Conversion Adjustment Program (DCA), authorized un-
  CONVERSION                        der JTPA Title III, provides grants for retraining, adjustment assistance,
  ADJUSTMENT                        and employment service to eligible employees adversely affected by
  PROGRAM                           reduced military spending and closing of military facilities. The OIG
                                    conducted audits of three DCA grantees: the Hughes Aircraft Com-
                                    pany (Hughes); the Commonwealth of Pennsylvania; and the South
                                    Carolina Employment Security Commission. Following is a summary
                                    of the audit findings and recommendations.

  Almost $2 Million                 The Hughes Aircraft Company received two DCA grants totaling $16
  Questioned on Two                 million, to provide basic readjustment and retraining services to ap-
  Hughes Aircraft                   proximately 5,000 dislocated workers. The OIG performed a financial
  Company Grants                    and compliance audit of Hughes’ grants, including the costs claimed by
                                    DefCon II, the subcontractor which carried out the program activities.

                                    Of the $14.2 million which had been claimed for reimbursement at the
                                    time of the audit, the OIG questioned $1,941,821 or about 14 percent.
                                    The most significant findings are as follows.



                                                      14
Semiannual Report to the Congress                                                     April 1 - September 30, 1996



                                    • Hughes failed to meet the required minimum percentage of
                                    grant expenditures for retraining activities. As a result, expen-
                                    ditures for services (readjustment and support) exceeded the
                                    authorized budget for these activities by over $1 million. The
                                    OIG questioned the substantial over expenditure of budgeted
                                    funds for services as not meeting the intent of the DCA grants.
                                    Hughes stated that it submitted grant modifications in Decem-
                                    ber 1995 (subsequent to the overexpenditure) and they
                                    “received verbal approval from ETA.” ETA indicated that on
                                    August 20, 1996, the grant official approved modifications for
                                    both grants.

                                    The OIG recommended that the grant budgets not be modi-
                                    fied retroactively to provide for the overexpenditure of budgeted
                                    amounts for services. In our opinion, it would be improper to
                                    excuse Hughes from having to reimburse the Government for
                                    grant funds spent outside of the approved budgets on activities
                                    other than retraining, the primary purpose of the grant.

                                    • Hughes’ subcontractor claimed $236,707 of excessive and
                                    untimely pension plan contribution costs in violation of IRS
                                    regulations, and subsequently attempted to “cure” the excess
                                    profit sharing contributions by retroactively adopting a new 10
                                    percent money purchase pension plan Hughes disagreed with
                                    this finding.

                                    • Prior to subcontracting with DefCon, and without receiving
                                    prior approval from the Grant Officer, Hughes utilized the ser-
                                    vices of an independent contractor to provide outplacement
                                    services at one of the Career Resource Centers. Individuals
                                    receiving out placement services during this period were not
                                    enrolled in the DCAP program. The OIG questioned $171,771
                                    of reimbursements made to the contractor and $28,382 of in-
                                    direct labor costs and related benefits for Hughes field office
                                    support. Hughes stated they took this action because they felt
                                    services needed to be provided to laid-off workers prior to
                                    the time DefCon could be fully operational.

                                    • Hughes and DefCon circumvented the maximum percentage
                                    (of grant expenditures) allowed for administration by charging
                                    a percentage of the salaries and fringe benefits of DefCon’s
                                    three highest paid administrative staff as “fees,” which allowed


                                                  15
Semiannual Report to the Congress                                                        April 1 - September 30, 1996



                                        DefCon to allocate the majority of these costs to non-adminis-
                                        tration cost categories. Accordingly, the OIG questioned
                                        $118,044 of subcontractor administrative salaries and fringe
                                        benefits improperly classified as “fees.” DefCon disagreed with
                                        this finding.

                                    We recommended that the ETA Grant Officer disallow questioned costs
                                    of $1,941,821. Of the total questioned costs, Hughes took exception
                                    to $ 617,286, but did not challenge $57,952. Hughes acknowledged
                                    that $1,266,583 of questioned costs would remain; however, they be-
                                    lieved that the amount would be resolved after providing additional
                                    documentation. (Report No. 18-96-016-03-340; issued July 1, 1996)

  Excess Funds from the             One of the largest naval facilities in the country affected by defense
  Philadelphia Naval Base           downsizing was the Philadelphia Naval Base and Shipyard (PNBSY).
  and Shipyard Should be            Since 1991, approximately 6,700 PNBSY employees have lost their
  Reallocated to Other              jobs. To assist the displaced workers, the Commonwealth of Pennsyl-
  Dislocated Worker
  Programs                          vania was awarded $28.15 million in DCA Program and National
                                    Reserve Account funds to provide readjustment and retraining services.
                                    However, the OIG found that participation levels in readjustment and
                                    retraining services were below expectations. As of February 1996,
                                    only 55 percent of the planned number of displaced workers had taken
                                    advantage of reemployment services, of which fewer than half enrolled
                                    in formal retraining programs. This resulted in $15.9 million of pro-
                                    jected excess funds.

                                    We recommended that ETA reallocate the projected $15.9 million in
                                    excess funds for use with other dislocated worker programs. ETA indi-
                                    cated that it has completed action on the reprogramming of $5.1 million
                                    and is reviewing reprogramming requests from the Commonwealth. (Re-
                                    port No. 03-96-009-03-340; issued August 29, 1996)


   Participants Well Served         In program year 1992, the South Carolina Employment Security Com-
   but Opportunity for Cost         mission received two DCA grants totaling $3.8 million. The grants
   Savings Missed on the            provided employment services for workers who lost jobs as a result of
   DCA Grants in South              the closing of the Myrtle Beach Air Force Base (Myrtle Beach) and
   Carolina                         mass layoffs at the Charleston Naval Shipyard (Charleston). The OIG
                                    audited grant activities that occurred during the period October 1991
                                    through September 1995.

                                    The audit found that participants were well served. Overall, 63 percent
                                    of the Charleston and 72 percent of the Myrtle Beach participants were


                                                       16
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



                                    placed in jobs following their layoff. Almost 75 percent of all partici
                                    pants were employed 13 weeks following termination and were earn-
                                    ing 77 percent or better of the wages they earned prior to being laid off.

                                    While participants were well served, we believe opportunities for cost
                                    savings were missed. Although the program objectives, delivery sys-
                                    tems, and outcomes were similar to those of another Title III dislocated
                                    worker assistance program, budgeted costs for the DCA grants were
                                    significantly higher. We believe that funding for the DCA grants could
                                    have been reduced if the historical costs of the Title III program had
                                    been considered by the state and ETA.

                                    The grantee was required to notify ETA of potential underexpenditures
                                    when actual enrollments did not meet planned enrollments. Though
                                    enrollments in the Charleston grant had sharply declined by the end of
                                    December 1992, the Commission did not notify ETA of
                                    underexpenditures until June 1994. Underexpenditures in the Myrtle
                                    Beach grant were over $360,000, almost 40 percent of the grant. While
                                    enrollments declined in mid-1993, discussions regarding the
                                    underexpenditures did not occur until April 1994. ETA could have
                                    detected the potential for underexpenditures earlier by monitoring the
                                    quarterly Dislocated Workers Special Projects Report, which contains
                                    both financial and participant enrollment data.

                                    Earlier detection of the underenrollments by ETA could have resulted in
                                    excess funds being identified and actions taken to reprogram the funds.
                                    Excess funds existed in both grants. However, the Commission ob-
                                    tained ETA’s approval to use the remaining funds on other defense
                                    projects. Because the costs of the other projects were charged to, and
                                    accounted for, against the Myrtle Beach and Charleston grants, the
                                    expenditure reports were distorted. Administrative costs were 21 per-
                                    cent of total expenditures for the Myrtle Beach grant. The limit was 15
                                    percent. The difference and all excess funds should be refunded by the
                                    Commission for redistribution to other defense closure sites.

                                    We recommended ETA conduct more in-depth analysis of the cost
                                    components of grant proposals before awarding grants and more closely
                                    monitor grant activities after the award. ETA has indicated that it is
                                    implementing a more structured and timely quarterly reporting require-
                                    ment procedure to support the kind of analysis recommended by the
                                    OIG. (Report No. 04-96-029-03-340; issued September 27, 1996)



                                                      17
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



  SCHOOL-TO-                        The School-To-Work Opportunities Act of 1994 establishes School-
  WORK                              to-Work (STW) Opportunities systems in every state in the nation. These
  OPPORTUNITIES                     systems are designed to assist youth in acquiring the knowledge, skills,
  ACT OF 1994                       abilities and labor market information they need to make a smooth and
                                    effective transition from school to career-oriented work, or to further
                                    education or training.

                                    The STW program is jointly administered and funded by the Federal
                                    Departments of Education (DOEd) and Labor (DOL), which provide
                                    “seed money” (State Development Grants) to all states and operational
                                    funding (State Implementation Grants) to many states. Certain commu-
                                    nities which are ready to implement their STW programs, but which are
                                    located in a state that did not receive a grant, receive direct Federal
                                    funding (Local Partnership Grant) to run their STW programs. While
                                    the Federal Government provides the impetus and initial operating costs
                                    of the state and local-level STW programs, the intent of the Act is that,
                                    eventually, non-Federal resources will incrementally replace Federal
                                    funding and, in about 7 years, the programs will continue to operate
                                    without Federal financial support. The Act has a “sunset” provision for
                                    October 1, 2001. In fiscal year 1996, the STW program was funded
                                    at $170 million.

                                    During this period, the OIG audited four of the various STW grants
                                    awarded to state and Local Governments.

  $772, 045 of Claimed              The Capital Area Training Foundation (CATF) was created in April
  Costs Questioned at               1994 by the Greater Austin Chamber of Commerce to develop and
  CATF                              implement a permanent STW system for the City of Austin and a 10-
                                    county planning region which approximates the Austin labor market area.
                                    For the period September 30, 1994 to September 30, 1995, CATF
                                    was granted $816,900 from DOL to implement an area-wide STW
                                    system and, for the period January 15, 1995 to January 14, 1996, CATF
                                    was granted $237,527 from DOEd to specifically assist youths in an
                                    Austin “high poverty” community. The OIG audited the costs claimed
                                    for reimbursement by CATF from the inception of the grants through
                                    September 30, 1995, and questioned $632,460 claimed under the DOL
                                    grant and $139,585 claimed under the DOEd grant.

                                    The preponderance of questioned costs resulted because CATF failed
                                    to maintain adequate documentation for most of the (a) salaries and
                                    fringe benefits ($337,767 DOL and $73,448 DOEd), and (b) contrac-
                                    tual and other direct costs ($236,242 DOL and $53,890 DOEd), for


                                                      18
Semiannual Report to the Congress                                                            April 1 - September 30, 1996



                                    which it claimed reimbursement. The OIG also found that certain travel
                                    costs were unsupported, program income was improperly paid to a
                                    CATF employee, and subawards did not meet Federal grant manage-
                                    ment regulations. While some grant costs were expressly unallowable
                                    under the applicable cost principles or terms of the grant awards, most
                                    costs were questioned because of inadequate, incomplete, or missing
                                    source documentation. Accordingly, the OIG concluded the financial
                                    reports issued on CATF submitted to DOL and DOE did not present
                                    fairly, in all material respects, the direct costs allowable and allocable to
                                    grants. The CATF agreed, for a sizable portion of the grants costs,
                                    documentation was not sufficient to make a determination that the costs
                                    were allowable.

                                    It was noted that CATF was a relatively new organization with no pre-
                                    vious experience with Federal grants and contracts. The CATF staff
                                    had very limited knowledge of pertinent Federal regulations and were
                                    not aware of the grant requirements for maintaining appropriate records.
                                    Moreover, prior to implementation of the grants, CATF was unable to
                                    obtain copies of the various Federal regulations noted in the awards
                                    and, at the time of the audit, did not have the necessary organization,
                                    experience, technical skills, and internal control procedures to properly
                                    administer Federal grant funds. This notwithstanding, in October 1995,
                                    the DOL Local Partnership grant was extended to September 30, 1996,
                                    with total grant funding increased to $1,429,575.

    Alert Memorandum Sent to By means of a March 1996 Alert Memorandum, the OIG informed the
    ETA Assistant Secretary  Assistant Secretary for ETA of the Tentative Findings, which included
                                    an assessment of the CATF’s capability to administer the STW grants.
                                    As a result, the Assistant Secretary for ETA sent a technical assistance
                                    team to CATF to instruct and assist them in the proper administration of
                                    Federal grants. In addition, ETA stated that it has incorporated the
                                    OIG audit findings into a series of 1-day training sessions for STW
                                    grantees. (Report No. 18-96-015-03-385; issued July 12, 1996)

   Referrals for                    In carrying out its audit responsibilities, the OIG is required (29 CFR
   Substandard Work to              96.403) to build upon and not duplicate “organization-wide audits,” or
   the Texas State Board of         single audits. Accordingly, prior to the commencement of fieldwork at
   Accountancy and the              CATF, the OIG requested a copy of CATF’s most recent single audit
   AICPA
                                    report. Based upon a review of the “clean” report, the OIG requested
                                    to review the auditor’s working papers, which were received too late to
                                    be of value during the fieldwork stage of the audit. Based on this re-
                                    view, the OIG performed a Quality Control Review (QCR) of the audit


                                                       19
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



                                    and related working papers and reported, in our opinion, that the audit
                                    did not meet generally accepted auditing standards, the Government
                                    Auditing Standards, and OMB circular A-133 guidelines.

                                    The standards which, in our opinion, the auditor failed to meet were:
                                    (1) auditor qualifications, (2) due professional care, (3) planning and
                                    supervision, (4) working paper preparation, (5) internal control review,
                                    and (6) compliance with laws and regulations. The auditor concurred
                                    with the OIG’s QCR findings.

                                    Accordingly, this matter was referred to the Texas State Board of Ac-
                                    countancy and the AICPA. (Report No. 18-96-015-03-385; issued July 12,
                                    1996)


  $274,059 of Claimed               The Texas Council on Workforce and Economic Competitiveness
  Costs Questioned at the           (TCWEC) was created in 1993 by the state legislature for the purpose
  Texas Council on                  of coordinating the state’s workforce development programs. Because
  Workforce and Economic            one of TCWEC’s foremost responsibilities was to guide policy in pro-
  Competitiveness                   ducing a viable state-wide School-to-Work system, TCWEC was
                                    selected as the recipient and administrator of the DOL-funded
                                    $1,960,000 School-to-Work (STW) State Development Grant
                                    awarded by DOL. For the period March 8, 1994 through September
                                    30, 1995, TCWEC reported incurred costs of $1,284,909 ($24,545
                                    of DOEd funds), of which the OIG questioned $274,059.

                                    The preponderance of questioned costs resulted because TCWEC had
                                    reimbursed one of its subcontractors for the full amount of costs claimed
                                    even though the firm had failed to maintain adequate documentation of
                                    costs and minimally acceptable accounting records as mandated by
                                    Federal cost principles and grant management requirements. Conse-
                                    quently, the OIG was unable to determine whether any of the reimbursed
                                    costs were allowable, reasonable, or allocable to the STW program
                                    and questioned the entire $232,759 in grant funds paid to the subcon-
                                    tractor (includes $24,545 of DOEd funds). The State of Texas
                                    disagreed with this finding, claiming that the contract was a fixed price
                                    contract and the criteria cited by the OIG did not apply. The OIG
                                    concluded that cost reimbursable criteria and principles applied to the
                                    contract.

                                    The OIG also questioned $39,631 of professional services and con-
                                    sulting costs claimed by subgrantees, primarily because there was no
                                    basis for determining the reasonableness of the expenditure and, in some


                                                      20
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



                                    instances, there was inadequate documentation or there was no written
                                    agreement (contract) to support the costs. Texas disagreed with this
                                    finding. The OIG also questioned $1,669 of other grant expenditures.

                                    In addition, the OIG concluded that a material weakness existed in
                                    TCWEC’s internal control structure over Federal grant awards be-
                                    cause TCWEC had not implemented policies and procedures to: (1)
                                    ensure subgrantees were made aware of the various requirements im-
                                    posed upon them by Federal statute and regulation, and (2) provide
                                    monitoring of subgrantee activities sufficient to ensure their compliance
                                    with applicable Federal requirements. (Report No. 18-96-025-03-385; is-
                                    sued September 30, 1996)



  SENIOR                            The Senior Community Service Employment Program (SCSEP) is au-
  COMMUNITY                         thorized under Title V of the Older Americans Act of 1965. The primary
  SERVICE                           purpose of the program is to promote useful and meaningful roles for
  EMPLOYMENT                        disadvantaged individuals, over the age of 55, by providing subsidized,
  PROGRAM                           part-time community service employment as a means to eventually ob-
                                    tain unsubsidized private employment. The SCSEP was funded at $373
                                    million in fiscal year 1996.

                                    Since 1971, the U.S. Forest Service (USFS) has been both a national
  DOL Should Evaluate
  Continuing the Forest             sponsor and host agency for operations of programs under the SCSEP.
  Service as a SCSEP                Within certain areas, USFS recruits and enrolls disadvantaged elderly
  National Sponsor                  individuals (enrollees) to perform part-time services for up to 1,300
                                    hours per year at a wage rate established by DOL regulations. USFS
                                    is unique among the 10 SCSEP national sponsors. In other sponsor
                                    programs, enrollees are assigned to local community service organiza-
                                    tions such as schools, nursing homes, and hospitals, which are called
                                    “host agencies,” or agencies which actually employ the enrollees. The
                                    USFS enrollees, however, may work in USFS offices or in various
                                    capacities in the national forest system, making the USFS both a na-
                                    tional sponsor and host agency for SCSEP program operations. The
                                    OIG audited approximately $75 million of program costs claimed for
                                    reimbursement by USFS for the 3-year period of July 1, 1992 to
                                    June 30, 1995.

                                    While the audit resulted in no questioned costs, it did result in findings
                                    which are pertinent to an improvement in the quality of program opera-
                                    tions. The USFS did not meet its goal of placing 20 percent of its
                                    enrollees into unsubsidized employment, and some “placements” were


                                                      21
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



                                    questionable because the enrollees were knowingly placed by USFS
                                    for very short periods in temporary jobs. USFS disagreed with this
                                    finding because, in its view, such placements were permissible under
                                    the DOL criteria applicable during the audit period. USFS stated it
                                    would follow revised DOL placement policy and guidelines, effective
                                    July 1, 1995, which prohibit classifying and reporting short-term, tem-
                                    porary assignments of enrollees as “placements.”

                                    The OIG also found that (1) USFS’ dual role as a national sponsor and
                                    host agency inhibited the agency from meeting the program objective of
                                    placing enrollees into long-term unsubsidized private employment; and
                                    (2) the cost per enrollee for PY 1994 was substantially higher than for
                                    other national sponsors, primarily because USFS did not meet the non-
                                    Federal in-kind contribution requirement of at least 10 percent. The
                                    USFS disagreed with this finding.

                                    The OIG also determined that: (1) USFS continued to pay cash incen-
                                    tives to enrollees even though DOL raised objections to such payments,
                                    (2) USFS misclassified certain costs when reporting to DOL, (3) cer-
                                    tain travel costs were not properly allocated to benefiting programs, (4)
                                    USFS’ charges to DOL were determined, in large part, by budgeted
                                    amount and not actual costs, and (5) internal controls needed to be
                                    improved to ensure timely and accurate billings to DOL. The USFS
                                    agreed with these findings.

                                    Based on the findings that USFS has continually failed to attain the
                                    DOL goal of placement of 20 percent of enrollees into private
                                    unsubsidized employment, combined with the fact that USFS faces cer-
                                    tain disadvantages as a Federal host agency in meeting program
                                    objectives, the OIG has recommended to DOL that it evaluate the merits
                                    of continuing USFS as a national sponsor. (Report No. 18-96-011-07-735;
                                    issued May 14, 1996)



  INCOME                            The Pension and Welfare Benefits Administration (PWBA) carries out
  SECURITY                          the Department’s responsibilities under Title I of the Employee Retire-
                                    ment Income Security Act of 1974 (ERISA), which regulates aspects
                                    of covered private sector pension and welfare benefit plans, and certain
                                    provisions of the Federal Employees’ Retirement System Act of 1986.
                                    PWBA’s responsibilities include enforcing fiduciary and reporting/dis-
                                    closure requirements, providing regulatory and interpretative guidance,
                                    developing policy and performing research related to pension and wel-


                                                      22
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                    fare benefit plans, and administering a public disclosure program.
                                    PWBA’s oversight of employee benefit plans impacts the protection of
                                    over $3 trillion in assets for about 200 million participants.

  Full Scope Audits of              Since 1984, the OIG has reported its concerns that hundreds of billions
  Employee Benefit Plans            of dollars in employee pension funds are not being adequately audited
  Still Needed                      to ensure that they are safeguarded and will be available in the future to
                                    pay promised benefits. The limited scope audit provision exempts from
                                    review by an auditor all plan funds that are held by institutions such as
                                    savings and loans, banks or insurance companies already regulated by
                                    Federal or State Governments. At the time ERISA was passed almost
                                    two decades ago, it was assumed that all of the funds invested in those
                                    regulated industries were being adequately reviewed. Unfortunately, as
                                    we have found from the Savings and Loan crisis, this is far from true.

                                    The OIG completed a follow-up audit to determine whether the rec-
                                    ommendations in our 1989 audit report titled “Changes Are Needed in
                                    the ERISA Audit Process to Increase Protection for Employee Benefit
                                    Plan Participants” have been made.

                                    We concluded that, with the exception of legislative changes, PWBA
                                    had implemented our previous recommendations. In fact, PWBA’s
                                    Office of the Chief Accountant (OCA) had performed a similar follow-
                                    up review during 1995. The OCA report sustained our 1989 audit
                                    results and refined or extended our recommendations. We endorsed
                                    OCA’s recommendations. We believe that the need for full scope au-
                                    dits of employee benefit plans is as important today as it was 7 years
                                    ago. The need for IPAs and plan administrators to report serious ERISA
                                    violations directly to DOL also continues.

                                    Therefore, we recommended that the Assistant Secretary for Pension
                                    and Welfare Benefits:

                                        • aggressively pursue the enactment of ERISA legislative
                                        changes to require full scope audits of employee benefit plans
                                        and to require the direct reporting of ERISA violations to the
                                        Secretary; and

                                        • adopt the recommendations of the Office of the Chief Ac-
                                        countant regarding audits of employee benefit plans.




                                                      23
Semiannual Report to the Congress                                                         April 1 - September 30, 1996


                                    Overall, PWBA concurred with OIG’s conclusion, and agreed to con-
                                    tinue pursuing legislative changes to ERISA which would require full
                                    scope audits for all plans and direct reporting for serious ERISA viola-
                                    tions. (Report No. 09-96-005-12-121; issued September 30, 1996)


                                    The Chief Financial Officers (CFO) Act requires the Department pre-
   FINANCIAL AND
   PERFORMANCE                      pare and submit to OMB annual financial statements that present DOL’s
   REPORTING                        overall financial position, results of operations, cash flows, budget and
   UNDER THE CFO                    actual expenses. The CFO Act also requires that the Department pro-
   ACT                              vide an accurate and complete portrayal of the extent to which its
                                    legislative mandate is being achieved. This portrayal of the Department’s
                                    performance is presented in the Overview and Supplemental section of
                                    the Department’s Annual Financial Statements. The OIG is respon-
                                    sible for auditing annually the financial statements and performance
                                    measures presented by the Department.

  FY 1995                           The Department’s financial statements for FY 1995 reflect $35 billion
  CONSOLIDATED                      in expenses, of which approximately 85 percent are “pass through”
  FINANCIAL                         funds, or funds actually expended by state or local governments. Of
  STATEMENTS                        the total, $22.2 billion was expended by the states for unemployment
                                    insurance benefit payments, and another $7.4 billion by state and local
                                    governments that operate state unemployment insurance, employment
                                    service, and JTPA programs. The balance of the expenses were for
                                    benefit payments and services provided directly by the Department.

    Financial Statement Opinion The OIG’s report on the FY 1995 financial statements contained a
                                    scope restriction related to the lack of audit assurance for tax revenues
                                    and related receivables for the Unemployment Trust Fund and Black
                                    Lung Disability Trust Fund. As a result, our opinion on the financial
                                    statements was qualified. However, this scope restriction is not a re-
                                    flection on DOL. Management has worked diligently with both GAO
                                    and Treasury to ensure that the Department’s funds are audited.

    Report on Internal Control      We reported a number of conditions involving DOL’s internal control
    Structure                       structure and its operation that warrant action. Four of these were
                                    deemed to be material weaknesses. These four are summarized below.

                                        1) Wage and Hour’s Civil Monetary Penalty (CMP) and
                                        Back Wage Systems. Improvements are necessary to maximize
                                        the collection of CMPs and back wage agreed-to-pay amounts,
                                        and to ensure that back wage collections (currently $49 million


                                                      24
Semiannual Report to the Congress                                                       April 1 - September 30, 1996



                                        on deposit with Treasury) are distributed to the affected
                                        employees. ESA agreed with OIG recommendations.
                                        Corrective action will be completed in FY 1997.

                                         2) ETA Debt Management. ETA debt management activities
                                        (for $82 million) maintained on a subsidiary system need to be
                                        integrated with the general ledger.

                                        ETA is reviewing its debt management system to develop a
                                        plan to address weaknesses noted by the OIG.

                                         3) Allowance for Uncollectible Accounts. The Department
                                        needs to have formal procedures in place to analyze and
                                        reestimate the $111 million allowance (which excludes
                                        allowance for UI benefit overpayments and delinquent state
                                        unemployment taxes which states collect) for uncollectible
                                        accounts when circumstances require, or on an annual basis.

                                        The OCFO has issued procedures for calculating an allowance
                                        for uncollectible accounts.

                                         4) Black Lung Disability Trust Fund (BLDTF) Actuarial
                                        Liability. The Black Lung actuarial model needs to be re-
                                        viewed to determine if changes are necessary.

                                        ESA stated that it routinely reviews the Black Lung actuarial
                                        model and does not believe changes recommended by the OIG
                                        would result in a material difference in the liability.

                                    The OIG also performed CFO and OMB required audit procedures to
                                    the performance measures reported in the Department’s Consolidated
                                    Fiscal Year 1995 Financial Statements. We identified the need to
                                    improve reporting of performance measures in the following three areas:

                                        1) Wage and Hour needs improvements in the presentation of
                                        measures,

                                        2) Wage and Hour needs improvements in the collection of
                                        data, and

                                        3) OSHA needs improvements in controls over data supporting
                                        information.


                                                      25
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                    We also identified other conditions and updated the status of conditions
                                    noted in prior year reports on the internal control structure. Several
                                    key conditions and the status of resolution or corrective action follow.

    SESA Real Property              In prior years, we reported that ETA did not maintain sufficient
                                    accountability over real property (historical cost value of $296 million,
                                    market value over $1 billion as per OIG 1988 inventory) purchased
                                    with SESA grant funds, in which the Department maintains a reversionary
                                    interest. ETA established corrective procedures and hired an outside
                                    contractor to maintain a property system for SESA real property.
                                    However, our FY 1995 audit disclosed that ETA again could not provide
                                    current records of SESA real property. ETA has initiated corrective
                                    action by establishing a position that would be responsible for ensuring
                                    regional office compliance with updating real property inventories and
                                    obtaining state certification of SESA real property.

    Job Corps Real and              In past years, we have reported numerous issues related to ETA’s
    Personal Property               accounting of the Job Corps Program’s real and personal property,
                                    which has a historical cost of $833 million. The systems used by ETA
                                    are insufficient, consisting of manual spreadsheets, which are updated
                                    and recorded in the general ledger at year end only; not integrated with
                                    the Department’s general ledger; and not reconcilable to the ETA 2110
                                    cost reports (the official record of expenditure) submitted by Job Corps
                                    contractors.

                                    ETA believes that its current systems are adequate to meet OMB
                                    requirements and management’s needs. Further, ETA does not believe
                                    the benefits of implementing the OIG’s recommendations would justify
                                    implementation costs.

    Black Lung Disability           The rates of interest charged on $4.7 billion of advances to the Trust
    Trust Fund Advances             Fund are not in compliance with the Black Lung Benefits Revenue
    From Treasury
                                    Act of 1977. The Act requires interest rates based on the average rate
                                    borne by obligations of the United States. For advances after 1981,
                                    the average rate should be based only on obligations whose remaining
                                    period to maturity is comparable to the anticipated maturity for the Black
                                    Lung advances.

                                    We noted interest rates used both before and after the 1981 amendments
                                    were based on the rate charged for 15-year obligations. Such a rate
                                    would not necessarily equal the actual average rate of obligations
                                    outstanding. Further, the interest rate for post-1981 advances should


                                                      26
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                    have been limited to those obligations with comparable maturity periods.
                                    Although Treasury is assigned with the responsibility of determining the
                                    rate of interest, Treasury personnel indicated they relied on information
                                    from the Department in assigning interest rates based on a 15-year
                                    maturity period.

                                    Management agreed to consult with U.S. Treasury Officials to ensure
                                    current policies conform with applicable statutes. With regard to OIG’s
                                    recommendation that prior year interest rates be recomputed, ESA
                                    states neither Black Lung legislation nor the memorandum of
                                    understanding with the U.S. Treasury provides for recomputation of
                                    original interest rates once they are assigned. (Report No. 12-96-007-13-
                                    001; issued May 1, 1996)



  AUDIT                             OMB Circular A-50, the IG Act Amendments of 1988 and the recent
  RESOLUTION                        Federal Acquisition Streamlining Act require that management decisions
                                    be rendered within 6 months of OIG’s issuance of audit reports. During
                                    this reporting period, ETA issued Final Determinations disallowing costs
                                    that had been questioned by the auditors in several audit reports issued
                                    in prior reporting periods. Examples of two of these disallowances
                                    follow.

  KRA Corp: $284,654 in             To determine compliance with the cost principles set forth in the Federal
  Indirect Costs are                Acquisition Regulation Part 31.2 entitled Contracts for Commercial
  Disallowed                        Organizations, the OIG (1) audited the indirect costs and rates proposed
                                    by KRA Corporation (KRA) for fiscal years 1993 and 1994, and (2)
                                    reviewed the propriety of the direct costs included in the bases of
                                    allocation used to distribute indirect costs. Primarily as a result of (1)
                                    unreasonable bid and proposal costs, (2) unreasonable profit sharing
                                    contributions to a 401(k) tax deferred savings and retirement plan, and
                                    (3) questionable charges for performance incentive compensation, the
                                    OIG questioned $407,402 as improper charges to KRA’s indirect cost
                                    pools. KRA did not agree with the OIG findings.

                                    The Director of Cost Determination (the departmental official responsible
                                    for approving contractor’s indirect cost rates) has issued a Final Decision
                                    allowing $122,748 and disallowing $284,654 of the questioned costs.
                                    The majority of the allowed costs were for contributions to the 401(k)
                                    plan, and were based on negotiations with KRA which resulted in a
                                    mutually acceptable understanding as to the proper management of such
                                    a plan. (Report No. 18-95-021-07-735; issued August 17, 1995)


                                                       27
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



  Nebraska Indian Inter-            For the period July 1, 1992 through September 30, 1994, the OIG
  Tribal Development                performed a financial and performance audit of the Nebraska Indian
  Corporation                       Inter-Tribal Development Corporation’s (NIITDC) JTPA program
                                    operations. Primarily because of excessive cash drawdowns which
                                    were used to pay expenses unrelated to the JTPA programs, and
                                    imputed interest on the excessive drawdowns, the OIG questioned costs
                                    of $279,568. ETA disallowed all of the questioned costs and determined
                                    that the six reported administrative findings remain uncorrected. Because
                                    NIITDC undercharged its JTPA grants for indirect costs, $255,145 of
                                    the disallowed costs are subject to debt collection. (Report No. 18-95-022-
                                    03-355; issued September 12, 1995)




                                                       28
Semiannual Report to the Congress        April 1 - September 30, 1996




                                    29
Semiannual Report to the Congress                                                             April 1 - September 30, 1996



 OFFICE OF INVESTIGATIONS
  OVERVIEW                          For this six-month reporting period, the Office of Investigation’s (OI’s)
                                    total investigative work hours were distributed approximately as fol-
                                    lows: Employment Standards Administration program investigations -
                                    22 percent, ERISA employee benefit plan investigations - 21 percent,
                                    investigations of internal union affairs -15 percent, investigations involv-
                                    ing labor-management relations - 9 percent, Employment and Training
                                    Administration program investigations - 8 percent, unemployment in-
                                    surance investigations - 5 percent, DOL employee integrity investigations
                                    - 4 percent, and all other categories of investigations - 16 percent.
                                    Accomplishments obtained from investigations during this period in-
                                    clude 133 indictments, 93 convictions, and $16 million in monetary
                                    results.

                                    While the number of indictments, convictions, and the monetary results
                                    achieved traditionally serve as a measurement of investigative success,
                                    OI continues to utilize “Impact Statements” to describe and evaluate
                                    the overall effect or impact that a particular investigation, or series of
                                    investigations, has had on a DOL program or related area.

                                    The Office of Investigations consists of two components: the Division
                                    of Labor Racketeering and the Division of Program Fraud. The fol-
                                    lowing section provides descriptions of investigative initiatives and case
                                    results for some of the more significant investigations by OI Special
                                    Agents.


                                    DIVISION OF LABOR RACKETEERING

                                    The Division of Labor Racketeering (LR) conducts criminal investiga-
                                    tions to eliminate the influence of organized crime, labor racketeering,
                                    and corruption in employee benefit plans, labor-management relations,
                                    and unions.

  IMMIGRATION                       In our last report, the LR identified, as an investigative priority, the emerg-
                                    ing non-traditional organized crime groups that adversely affect the
                                    workplace and America’s workers. Specifically, our initiative is to ad-
                                    dress those employers, in industries traditionally organized by unions,
                                    who profit by employing illegal aliens. It is our contention that the utili-
                                    zation of an illegal labor force grants an unfair advantage to those


                                                        30
Semiannual Report to the Congress                                                           April 1 - September 30, 1996



                                    employers who do so, and ultimately undermines the delicate balance
                                    between labor and management. The LR’s initiative also targets those
                                    labor leasers and brokers who, in concert with organized illegal alien
                                    smuggling organizations, facilitate the placement of smuggled aliens into
                                    the American workplace.

                                    During this reporting period, the LR and the Immigration and Natural-
                                    ization Service (INS) have completed negotiations for a Memorandum
                                    of Understanding which will enable both agencies to cooperatively con-
                                    duct investigations of mutual interest. Specifically, the Memorandum of
                                    Understanding provides for the coordination of enforcement activities,
                                    including the development of joint strategies and investigations. It also
                                    calls for the sharing of intelligence and investigative information on items
                                    of mutual interest.

                                    In addition, during this period, LR has been working with the Deputy
                                    Attorney General’s Task Force on Sweatshop Enforcement. Instances
                                    have been found where sweatshops employ illegal aliens under condi-
                                    tions of involuntary servitude. The task force is developing strategies to
                                    increase enforcement efforts against sweatshops by combining the ex-
                                    pertise and experience of agencies at DOL, Justice, and Treasury.
                                    Seven major U.S. cities have been selected as targeted deterrence zones.
                                    Task forces consisting of prosecutorial and investigative resources have
                                    been identified for these cities. A training program and prosecutorial
                                    guide is being developed to assist the task force in coordinating their
                                    efforts.


  LABOR-                            Since its establishment in 1978, the OIG directed its attention to sup-
  MANAGEMENT                        porting the Department of Justice Organized Crime Strike Force’s efforts
  RELATIONS                         to target traditional organized crime figures engaged in classic labor
                                    racketeering violations, such as embezzlement, bribery, and extortion.
                                    These traditional priorities were highlighted in the 1986 President’s
                                    Commission on Organized Crime (PCOC) report which detailed the
                                    way that racketeers employed new and more sophisticated methods to
                                    exploit union members and infiltrate the marketplace, and made various
                                    recommendations which the OIG has consistently strived to implement.

                                    In addition, the PCOC identified four international unions which were
                                    under the control of traditional La Cosa Nostra (LCN) organized crime
                                    entities. These unions were the International Brotherhood of Team-
                                    sters (IBT), the Laborers’ International Union of North America


                                                       31
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                    (LIUNA), the International Longshoreman’s Association (ILA), and
                                    the Hotel Employees and Restaurant Employees International Union
                                    (HEREIU). Over the past ten years, 35% of the Division of Labor
                                    Racketeering’s cases have involved allegations of corruption in these
                                    four unions, and significant progress has been made in addressing this
                                    corruption. This effort alone has resulted in over 500 criminal indict-
                                    ments and Civil RICO actions for racketeering-type offenses.

                                    During this reporting period, the Inspector General testified before the
                                    House Committee on Government Reform and Oversight concerning
                                    the efforts of the Federal Government in combatting organized crime’s
                                    influence over the nation’s labor unions. While the Government has
                                    made considerable progress in this area, the Inspector General testified
                                    that there is more work to be done. The Inspector General also noted
                                    several trends in the labor racketeering arena, including the emergence
                                    of non-traditional organized crime groups and a shift from traditional
                                    labor racketeering violations to more complex illegal manipulations of
                                    employee benefit plan funds.


                                    Civil RICO Actions

                                    LR is continuing its emphasis on the utilization of the equitable powers
                                    of the courts under the Racketeer Influenced and Corrupt Organiza-
                                    tions (RICO) statute to address labor racketeering problems. The Act
                                    allows the Government to seek court-appointed trusteeship of the union
                                    with appointed monitors who are responsible for removing organized
                                    criminal influence from the union. Past and present LR cases and con-
                                    victions have been used by the Department of Justice as “predicate
                                    acts” which establish a pattern of racketeering within the union. After a
                                    monitor is appointed, LR works closely with them to investigate and
                                    remove organized crime’s influence in the union.

                                    This strategy has shown some impressive results, particularly in the unions
                                    identified by the PCOC. Recently, in January 1996, the LIUNA agreed
                                    to hold its first direct election of international officers by the union’s
                                    membership. We believe that this will go a long way to restoring de-
                                    mocracy for the union and give the union’s membership a voice in the
                                    way that the union conducts its business. LR has also worked closely
                                    with the HEREIU monitor to remove from office several union officials
                                    having identified ties to organized crime. LR continues to cooperate
                                    with the monitor for the IBT, as well as the IBT’s own ethical practices


                                                       32
Semiannual Report to the Congress                                                         April 1 - September 30, 1996


                                    committee, to address corruption within the union. The following cases
                                    represent some recent progress in this area:

   Hotel Employees and              In December 1990, a Civil RICO complaint was filed against Local 54
   Restaurant Employees             (in Atlantic City, New Jersey) of the Hotel Employees and Restaurant
   Local Union 54 Freed             Employees (HERE) Union alleging a 20-year pattern of racketeering
   from Organized Crime’s           by the Scarfo La Cosa Nostra crime family. Included in the complaint
   Control
                                    were allegations that the Scarfo LCN took control of Local 54 by force,
                                    and maintained their control by threatening to kill members of the union
                                    who attempted to run against them in the general elections. Prior to the
                                    Civil RICO filing, there were no contested elections in the union for
                                    more than 10 years. During this period, less than 5% of the 15,000
                                    members voted in any election.

                                    In April 1991, the U.S. District Court appointed a Monitor of Local
                                    54, and eight officers and employees of the union were forced from
                                    office. In August 1993, the Monitor held open elections for office in the
                                    union. Investigations revealed that eight of the candidates were associ-
                                    ates of the organized crime figures that were removed from the union
                                    when the Civil RICO was first filed with the Court. In addition, several
                                    investigations identified individuals with organized crime associations
                                    who were subsequently barred from holding office because of these
                                    associations. During this election, 3400 members, or 22%, voted.

                                    The next elections were held recently in August 1996. Over ninety
                                    persons were nominated for office and not one of them had any known
                                    associations with organized crime. As a result, an entire new group of
                                    candidates was elected and will take office on October 13, 1996. During
                                    this election, 5098, or 33% of the union membership, voted.

                                    Impact: As a result of the court-appointed monitorship in Local
                                    54 and the support of the LR, an entire new group of officers --
                                    with no organized crime associations -- has been elected to run the
                                    union. These positive results illustrate that the strategy of filing a
                                    Civil RICO complaint and appointing a monitor of Local 54 has
                                    succeeded in its primary objective: the removal of organized crime
                                    from the union and the return of democratic leadership to the union.
                                    Without the monitorship, none of the new officers could have been
                                    nominated, let alone elected.




                                                      33
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



  LIUNA Officials                   Salvaltore Lanza, LIUNA Local Union 30, Mason Tenders District
  Permanently Banned                Council of Greater New York (MTDC) Business Manager, Fund
  From Mason Tenders                Trustee, and former Recording Secretary was found guilty of 5 broad
  District Council for LCN
  Ties                              categories of prohibited conduct, by the court-appointed Monitor un-
                                    der the union’s Civil RICO Trusteeship consent agreement. Pursuant
                                    to paragraph 4 (e) of the Consent Decree, Lanza was expelled from
                                    the MTDC and Local 30, and was banned permanently from member-
                                    ship in, association with, or employment by the MTDC and any affiliated
                                    union trust funds.

                                    An LR investigation disclosed that Lanza, a reputed Soldier of the
                                    Genovese organized crime family, allegedly obtained his District Coun-
                                    cil position as a result of this organized crime affiliation and that he
                                    advanced the interests of the Genovese Family within the District Council
                                    by securing employment for a Genovese Family associate with the Dis-
                                    trict Council Trust Funds. The investigation also concluded that Lanza,
                                    as Business Manager, committed Taft-Hartley racketeering violations
                                    by accepting improper payments from two contractors within Local
                                    30’s jurisdiction. In addition, Lanza refused to comply with document
                                    requests and testified falsely during his deposition about these matters.
                                    (U.S. v. Lanza S.D. of New York)

                                    Peter Vario, identified as a Luchese solider and the former fund admin-
                                    istrator of LIUNA Local 66 was also permanently barred from
                                    membership or employment by any unions or trust funds affiliated with
                                    the MTDC because of his ties to organized crime. In addition, the
                                    court-appointed monitor imposed a fine on Vario of $35,796.

                                    Another LIUNA official, Michael Labarbara, Jr., a reputed member of
                                    the Luchese organized crime family and the former manager of LIUNA
                                    Local 66, was also permanently barred from membership or employ-
                                    ment by any unions or trust funds affiliated with the MTDC. In addition,
                                    Labarbara was fined $39,008 by the court-appointed monitor for the
                                    union. Labarbara’s sentencing for his conviction on Federal racketeer-
                                    ing charges can be found on page 36 of this report.

  Columbo Organized                 Andrew Russo, Acting Boss of the Columbo LCN Family, and Dennis
  Crime Boss Indicted               Hickey, an associate of the Columbo Crime Family and operator of
                                    Hickey’s Carting, Inc. (a Long Island, NY garbage carting company)
                                    were indicted on charges of racketeering, money laundering, and fraud.
                                    The indictment alleges that Russo, Hickey, four other individual defen-
                                    dants, and four corporations, operated garbage collection businesses


                                                       34
Semiannual Report to the Congress                                                            April 1 - September 30, 1996



                                    through a pattern of racketeering which allowed organized crime to
                                    control the Long Island garbage carting industry and the IBT Local
                                    813, which is the union representing a significant portion of employees
                                    in the industry.

                                    According to the indictment, in 1987, Hickey and his company were
                                    convicted on charges of bribery concerning the granting of permits to
                                    dump garbage in the Town of Islip, New York. Following Hickey’s
                                    bribery conviction, the Town of Islip revoked the Islip carting permits,
                                    and barred Hickey and Hickey’s Carting from collecting garbage in the
                                    town. The current indictment alleges that, notwithstanding his prior
                                    conviction and debarment, Hickey and his company fraudulently re-
                                    tained their Islip garbage routes, by using a front-company known as
                                    Grand Carting, Inc. In addition, the indictment charges that Hickey
                                    used an additional front company, called Competition Carting, Inc., to
                                    deprive Hickey’s Carting union employees of their union wages and
                                    benefits by paying them through the non-union Competition Carting
                                    company. This investigation is being conducted by the FBI, IRS, and
                                    the Division of Labor Racketeering. U. S. v. Russo (E.D. of New York)

   Three Teamsters                  In March 1995, the Government reached an agreement, or consent
   Officials Removed from           decree, with the International Brotherhood of Teamsters (IBT) con-
   Union Positions                  cerning an earlier Civil RICO lawsuit filed against IBT Local 282 in
                                    New York. Local 282 represents about 3,000 workers, mainly in the
                                    construction industry. This agreement divided the responsibilities of
                                    rooting out corruption between the International and the Government.
                                    The IBT President appointed a trustee to run Local 282, and provide
                                    an educational program for Local 282 members on issues such as union
                                    democracy and collective bargaining. The Court appointed a Corrup-
                                    tion Officer with the responsibility of conducting investigations and taking
                                    actions to eliminate organized crime’s influence and corruption. LR has
                                    been working closely with the monitor in identifying individuals who are
                                    associates of organized crime families.

                                    During this reporting period, three Local 282 stewards were removed
                                    for committing acts of corruption and their association with Gambino
                                    LCN family members. Robert Henfling, an on-site steward, and shop
                                    stewards Dominick Albanese and Herman Schwall, were removed from
                                    their positions by the Local’s Corruption Officer for corrupt activity in
                                    violation of the consent decree. U.S. v. Local 282 of the International Broth-
                                    erhood of Teamsters, et al. (E.D. of New York).




                                                       35
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                    The following case examples illustrate some of the significant efforts of
                                    the Division of Labor Racketeering in removing corruption from the
                                    nation’s labor unions outside of the RICO process during this reporting
                                    period.

   Union Official and               Harry Seidman, the former Comptroller of the International Organiza-
   Business Man Found               tion of Masters, Mates, & Pilots (MMP) was found guilty of embezzling
   Guilty of Embezzlement           over $900,000 in funds from the union. Seidman was convicted for
                                    conspiring with a long-time friend, Ronald Schoop, who performed
                                    printing jobs for the union. The conspiracy involved inflating bills and
                                    charging for printing services not rendered. Because Seidman was the
                                    Comptroller and thus controlled the union’s finances, he wrote checks
                                    from the union’s accounts to cover printing bills from Schoop. Some of
                                    Schoop’s printing bills were legitimate, and others were not. Schoop
                                    would cash the union’s checks for the false bills, and kick back most of
                                    the amount to Seidman. This scheme lasted for over 15 years, resulting
                                    in the loss of over $900,000 from the union’s funds.

                                    Seidman, who had been the union’s Comptroller for over 30 years,
                                    was forced to resign from his position after the MMP found him to have
                                    been negligent in handling invoices submitted by Schoop. The sentenc-
                                    ing for Seidman is scheduled to occur in December.

                                    Additionally, even though Schoop was the prosecution’s star witness
                                    during the trial, he was also convicted of conspiring to embezzle from
                                    the union and sentenced to serve 8 months in prison. The sentencing
                                    Judge cited the magnitude and the scope of the embezzlement as rea-
                                    sons for sentencing Schoop in spite of his cooperation with the
                                    Government. (U.S. v. Seidman District of Maryland).

  Luchese OC Family                 The former head of the General Building Laborers Local 66, in New
  Member Sentenced                  York, Michael Labarbara, was sentenced to nine years in prison and
                                    five years probation. He was ordered to pay $8.3 million in restitution
                                    and $550 in other charges after being convicted of conspiring to steal
                                    union welfare funds from General Building Labors Local 66 of New
                                    York.

                                    Labarbara, a reputed member of the Luchese organized crime family,
                                    was the Local 66 business agent and the union’s training fund adminis-
                                    trator. Labarbara devised a scheme for the union training fund to pay
                                    $5 million for a new training facility located on Long Island that actually
                                    would only cost $2.5 million to build. He profited from the inflated cost


                                                       36
Semiannual Report to the Congress                                                             April 1 - September 30, 1996



                                    of the new training center through kickbacks from the contractors who
                                    performed the construction and landscaping work at the job site. U.S. v.
                                    Labarbara (E.D. New York)

                                    Impact: Labarbara used his position as a union official to enrich
                                    himself, members of his family, and business associates at the ex-
                                    pense of the union benefit fund and the union membership. Local
                                    66 members are currently being taxed $1.00 per hour by the union
                                    to recover the money stolen by Labarbara in an effort to keep the
                                    benefit fund solvent.

  Kansas City Fire                  In 1988, six Kansas City fire fighters were killed following explosions
  Fighters Case Cracked             at a Kansas City construction excavation site. The Bureau of Alcohol
  During LR Probe                   Tobacco and Firearms (ATF) determined that the explosions resulted
                                    from arson fires at two storage trailers on the construction site which
                                    contained 45,000 pounds of ammonium nitrate, a highly explosive chemi-
                                    cal. During this same period of time, there had been numerous acts of
                                    vandalism and arson at non-union construction sites which were under-
                                    going union organizing attempts. In addition, two Kansas City labor
                                    unions, Teamsters Local 541 and Operating Engineers Local 101, had
                                    a documented history of violence relating to organizing attempts. The
                                    LR joined the ATF and the Kansas City Police Department in a probe
                                    to determine if these acts of arson and vandalism were actually extor-
                                    tion attempts by union representatives against non-union employers.
                                    While no direct linkage to union organizing activity was found, the in-
                                    vestigation did identify five individuals believed to be responsible for the
                                    fire which had killed the fire fighters. George Frank Sheppard, Earl D.
                                    Sheppard, Darlene M. Edwards, Bryan E. Sheppard and Richard W.
                                    Brown were indicted by a Missouri Federal Grand Jury for malicious
                                    destruction of property resulting in death to a public safety officer.

                                    The defendants are alleged to have conspired to steal items from a
                                    highway construction site. At the site, two construction trailers con-
                                    tained approximately 45,000 pounds of ammonium nitrate, a mixture of
                                    fertilizer and diesel fuel used in construction projects for blasting through
                                    rock. The defendants set fire to one of the trailers in an effort to destroy
                                    evidence of their theft. The defendants also set fire to a security guard’s
                                    unoccupied pick-up truck located across the highway from the con-
                                    struction site. As a result of the fire, one of the trailers with the ammonium
                                    nitrate exploded resulting in the instantaneous deaths of the six Kansas
                                    City, Missouri firefighters.



                                                       37
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                    A conviction on this charge carries a maximum punishment of death and
                                    a $250,000 fine. This investigation was conducted jointly with the Bu-
                                    reau of Alcohol, Tobacco and Firearms and the Kansas City, Missouri
                                    Police Department. This case was also featured on the Unsolved
                                    Mysteries television show. U.S. v. Sheppard (W. D. Missouri).

  National Maritime                 Louis Parise, Sr., President of the National Maritime Union (NMU),
  Union Officials Indicted          his son, Louis Praise, Jr., and NMU pension and welfare plan adminis-
  for Bribery and                   trator, Edward Montague, were indicted on charges of committing crimes
  Kickbacks                         relating to the operation of the NMU and its pension and welfare plan.
                                    Parise, Sr. and Parise, Jr., were charged with racketeering and criminal
                                    forfeiture. Parise, Sr. was also charged with 68 counts of theft of union
                                    funds, conspiracy, and mail fraud. In addition, Parise, Jr. was charged
                                    with interstate travel in aid of racketeering. Both men were charged
                                    with criminal forfeiture of at least $735,023, along with the position,
                                    rights, property and benefits that Parise, Sr. obtained from the NMU
                                    since 1988. Montaque was charged with conspiring with Louis Parise,
                                    Sr., to provide Parise, Jr. with a chauffeur who was paid from plan
                                    funds. This expense, which totaled approximately $90,000, between
                                    1992 to 1995, was unauthorized and concealed from the plan trustees.

                                    The charges against Parise Sr. and Parise, Jr. stem from the receipt and
                                    distribution of more than $100,000 in kickbacks from Philadelphia at-
                                    torney Bernard Sacks to Parise, Sr. and other NMU port agents in
                                    exchange for the NMU’s referral of injured members to attorney Sacks.
                                    The grand jury charged that Parise, Sr. and Sacks agreed to the bribe
                                    scheme and that Parise, Jr. then began working for the Sacks law firm
                                    and distributing bribes from Sacks to Parise, Sr. and other NMU offi-
                                    cials throughout the United States between 1988 and 1993. At one
                                    point, the grand jury charged, Parise, Jr. arranged for Sacks to increase
                                    Parise, Jr.’s salary as an “investigator” for the law firm to $130,000 per
                                    year so that Parise Jr. had sufficient cash available for bribes to NMU
                                    officials. U.S. v. Parise, Sr. (E.D. Pennsylvania)

  Former Teamsters’                 Sanford Pollack, a former attorney of the International Brotherhood of
  Union Lawyer Indicted             Teamsters’ Local 875 benefit funds, was indicted for burning down his
  for Arson                         Florida home for the insurance proceeds. Pollack is presently incar-
                                    cerated in Federal prison on labor racketeering charges relating to an
                                    embezzlement from the International Union of Allied Novelty and Pro-
                                    duction Workers.




                                                      38
Semiannual Report to the Congress                                                        April 1 - September 30, 1996



                                    Pollack’s West Palm Beach, Florida home was completely destroyed
                                    by fire in March, 1992. The cause of the fire was subsequently deter-
                                    mined to be arson, and Pollack has now been charged with arson and
                                    conspiracy to commit the arson. The home had been listed for sale
                                    prior to the fire for over $500,000. The property was owned by Pol-
                                    lack and JEL Leasing Company, a New York corporation of which
                                    Pollack is the principle owner. The arson charge carries a maximum
                                    penalty of 20 years of imprisonment.

                                    This case was investigated jointly with the Bureau of Alcohol, Tobacco
                                    and Firearms (ATF) and the Palm Beach County Sheriff’s Office. U.S.
                                    v. Pollack (E.D. of New York)



   EMPLOYEE                         LR also devotes significant investigative efforts and resources to the
   BENEFIT PLAN                     employee benefits arena. Employee benefit plans include pension, wel-
   INVESTIGATIONS                   fare and health insurance plans. In light of the financial ruin that many
                                    American families have suffered because of the loss of medical cover-
                                    age and benefits, the LR will continue to devote attention to criminal
                                    abuse of employee benefit funds. The following case examples illus-
                                    trate some of the OIG’s more significant accomplishments during this
                                    reporting period.

   Former Teamsters’                Two former officials of two New Jersey International Brotherhood of
   Union Officials Indicted         Teamsters (IBT) locals, Albert Sainato, Sr. and his son Albert Sainato,
   in Embezzlement                  Jr., were indicted on charges of conspiracy, union fund embezzlement,
                                    and union welfare fund fraud.

                                    The Sainatos were charged with conspiring to use their positions as
                                    officers of Teamsters’ Local 1518, Local 462, and the IBT Greater
                                    Metropolitan Welfare Fund to embezzle more than $600,000 from the
                                    locals and a regional welfare fund over a five-year period. The locals,
                                    which represent short-haul truck drivers, factory workers, and various
                                    service employees, have operated under trusteeship since October,
                                    1993. After Local 1518 merged its welfare fund with Local 462’s
                                    plan, Sainato, Jr. conspired with others to have Local 462 pay salaries
                                    to himself and other Sainato family members, although no work was
                                    actually performed for the local. In addition, both Sainatos paid for
                                    medical benefits from the union’s plans for relatives who were unautho-
                                    rized to receive them. U.S. v. Sainato (District of New Jersey)




                                                       39
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



  Teamsters Local                   Thomas J. Lamanna, a former union organizer for New Jersey IBT
  Organizer Indicted for            Local 945, was charged by a Federal Grand Jury in Newark, New
  Extortion                         Jersey on charges of extortion. The Indictment alleges that Lamanna
                                    extorted a “no-show” weekly salary of $1,000, as well as union medi-
                                    cal benefits, from a Keyport, NJ garbage hauler under contract with
                                    IBT LU 945, in return for labor peace. The Indictment charges that
                                    between 1990 and 1991, Lamanna received more than $50,000 in
                                    extorted payments. U.S. v. Lamanna (District of New Jersey).

  Senator Arlen Specter’s           Kathleen M. Groetzinger of Philadelphia pled guilty to embezzling ap-
  Secretary Charged with            proximately $1 million in pension fund assets from the pension plan of
  Pension Fund Theft                Senator Arlen Specter and U.S. District Judge Marvin Katz. The guilty
                                    plea stems from Groetzinger’s use of her position as the trustee of the
                                    Pension and Profit Sharing Plan of the law firm formerly maintained by
                                    Senator Specter and Judge Katz.

                                    Groetzinger admitted that she embezzled the assets of the plan between
                                    1987 and 1995, by unauthorized withdrawals and check forgery, thereby
                                    preventing plan assets from accruing interest, which would have re-
                                    sulted in a total value of $1,164,356. Additionally, Groetzinger concealed
                                    her crime by providing fictitious and false annual reports to the plan
                                    participants and to the IRS and U.S. Department of Labor.

                                    The case was investigated by the Federal Bureau of Investigation and
                                    the Division of Labor Racketeering. U.S. v. Groetzinger (E.D. of Pennsyl-
                                    vania).


  Additional Defendants             In our last Semiannual Report to the Congress the LR division re-
  Indicted in Fraudulent            ported the indictment of six individuals on charges relating to their
  “Leased Assets”                   involvement in a scheme to “lease” worthless stock to reinsurance com-
  Scheme                            panies in order to obtain medical insurance premiums from policy holders
                                    of the World Life and Health Insurance Company (World Life). An LR
                                    investigation disclosed that the Pennsylvania Life and Health Insurance
                                    Guarantee Association, a State agency responsible for protecting Penn-
                                    sylvania insurance policy holders from insolvent insurance companies,
                                    was defrauded of $5.3 million. The World Life Company was licensed
                                    to operate as an insurance company in the Commonwealth of Pennsyl-
                                    vania since 1958. However, World Life was suspended and liquidated
                                    by Pennsylvania in 1991 because of the losses sustained from the false
                                    securities scheme.




                                                      40
Semiannual Report to the Congress                                                            April 1 - September 30, 1996



                                    During this reporting period, two additional individuals, Matthew Bonar
                                    and Dallas Bessant, have been indicted in connection with this fraud
                                    scheme. The indictment alleges that the defendants operated as “secu-
                                    rities vendors” which provided stocks, under leasing agreements, to
                                    artificially enhance the balance sheets of various off-shore reinsurance
                                    companies. The reinsurance companies would then use the stocks as
                                    company assets to bolster the companies’ financial statements. The
                                    inflated balance sheets were used to defraud World Life by represent-
                                    ing that the reinsurance companies had the ability to pay medical
                                    reinsurance claims on group medical insurance policies issued by World
                                    Life, when in fact they did not have the ability to pay any claims. The
                                    reinsurance companies received World Life policyholders’ premiums
                                    of approximately $7.5 million. U.S. v. Rennert, et al. (E.D. of Pennsylvania)

                                    Bogus Labor Unions

                                    The LR Division has narrowed its investigative focus in the arena of
                                    Multiple Employer Welfare Arrangements (MEWAs) to focus on fraudu-
                                    lent health insurance schemes operated by “bogus labor unions”. LR
                                    investigations have shown that scam artists who formerly operated
                                    fraudulent MEWAs have moved into this second generation scam in-
                                    volving “bogus unions”.

                                    Under the Federal Employee Retirement Income Security Act, health
                                    plans sponsored by employee organizations or unions are exempt from
                                    the scrutiny of state insurance regulatory officials.

                                    Consequently, these plans are not required to maintain cash reserves,
                                    are not guaranteed by a state guarantee fund, and are less likely to be
                                    subjected to scrutiny due to limited Federal resources.

                                    However, our investigations have shown that “bogus unions” conduct
                                    no legitimate collective bargaining and provide no representation for
                                    their members, but merely serve as a vehicle for the sale of insurance
                                    and to escape state regulation. This activity is facilitated by the ease in
                                    which a “union” is formed under the Labor Management Reporting and
                                    Disclosure Act and National Labor Relations Act. Individuals desiring
                                    to start a union only need to declare themselves a union and register by
                                    filing a Labor Organization Information Report (LM-1), a copy of the
                                    union’s constitution, and bylaws with the Department of Labor. The
                                    Department of Labor makes no judgement as to the validity of a union.
                                    Through our investigative efforts, the LR Division seeks to prevent these


                                                       41
Semiannual Report to the Congress                                                           April 1 - September 30, 1996



                                    fraudulent health care operations from gaining an air of legitimacy and
                                    to prevent these operators from marketing a product destined for abuse.

  Guilty Pleas In                   Two former officials of a now-defunct New York union local pled guilty
  Fraudulent Health                 to Federal racketeering charges for forming a union solely for the pur-
  Insurance Scheme                  pose of selling fraudulent health insurance. Thomas Cucuro and Joseph
                                    Bartolomeo had been the business manager and president of Local 613-
                                    614, and they also served as trustees of the Local 231-613-614 welfare
                                    fund.

                                    The two pled guilty to charges of soliciting and receiving approximately
                                    $300,000 in kickbacks from insurance brokers who conducted busi-
                                    ness with the welfare funds affiliated with the union. The brokers would
                                    solicit individuals and employers to purchase health insurance offered
                                    by the union. Cucuro and Bartolomeo also gave the brokers union
                                    membership cards to pass on to the customers which would make them
                                    eligible for union health coverage. The insurance premiums were paid
                                    to the brokers, who, in turn, would send only a portion to the Welfare
                                    plan. The remainder of the proceeds were split among the brokers and
                                    Cucuro and Bartolomeo.

                                    In addition, Elwood Trader and Paul Wood, two Maryland insurance
                                    brokers, plead guilty to a Criminal Information charging them with pay-
                                    ing the kickbacks to Cucuro and Bartolomeo. In addition, Brandon
                                    Trader (a relative of Elwood) pled guilty to a Criminal Information charg-
                                    ing him with making false statements on a document required to be kept
                                    by ERISA. These false statements were related to the kickbacks paid
                                    to Bartolomeo and Cucuro.

                                    The Local 231-613-614 Welfare Fund was placed under the control
                                    of a court-appointed independent fiduciary in September 1994, when
                                    the welfare fund had approximately $6 million in unpaid medical claims
                                    from its members. The Department’s Pension and Welfare Benefits
                                    Administration has been working with the independent fiduciary to re-
                                    cover monies and pay the outstanding medical claims.

                                    The case was conducted jointly with the Federal Bureau of Investiga-
                                    tion, the Internal Revenue Service Criminal Investigative Division, and
                                    the Suffolk County District Attorney’s Office. U.S. v. Cucuro, et. al. (E.D.
                                    New York)




                                                       42
Semiannual Report to the Congress                                                         April 1 - September 30, 1996


                                    Impact: This case exposed a weakness in the Government’s regu-
                                    latory scheme by permitting what is, in essence, an insurance
                                    operation to assume the cloak of ERISA preemption, thus avoiding
                                    more stringent regulation by State Insurance Commissioners. This
                                    case further shows the ease at which employers may be duped by
                                    brokers selling a “legitimate” health insurance product.

  Insurance Broker                  Harvey I. Glick, former president and owner of HIG Associates in
  Convicted of Conspiracy           Hauppauge, New York, was convicted of criminal conspiracy and brib-
  and Bribery                       ery by a trial jury in Federal district court in Brooklyn. Glick was
                                    convicted of paying William Loeb, president of Consolidated Union
                                    Local 867, approximately $150,000 in bribes to be the exclusive mar-
                                    keting agent for Local 867’s health insurance plan. Loeb created
                                    Consolidated Union Local 867 primarily to sell health insurance. Through
                                    a network of brokers, Loeb marketed the plan to over 9,000 partici-
                                    pants nationwide. When Local 867’s plan was eventually deemed
                                    insolvent, he created an international union and sold subordinate local
                                    unions, which were in effect franchise operations, to a number of insur-
                                    ance brokers so they could continue the scheme.

                                    Loeb, who previously pled guilty to embezzling approximately $250,000
                                    from the union and its welfare fund, is currently serving a seven year
                                    sentence in Federal prison for his role in the scheme. At his sentencing,
                                    Glick will face up to $40,000 in fines and 12 years in prison.

                                    The investigation was conducted by the Division of Labor Racketeer-
                                    ing and the Labor Department’s Pension and Welfare Benefits
                                    Administration. U.S. v. Loeb, Glick et al. (E.D. of New York).

                                    Impact: The Local 867 bogus union case is particularly illustra-
                                    tive of the adaptability of fraudulent health insurance operators.
                                    Loeb set up a local union solely for the purpose of collecting pre-
                                    mium payments, with no intention of ever providing health benefits.
                                    After the Local 867 operation was shut down, Loeb simply went a
                                    step further and created an international union. Apparently, he
                                    had analyzed his previous mistakes and decided that he needed to
                                    remove himself from the level of actually selling insurance, to the
                                    level of selling union local charters to other individuals who would
                                    peddle the insurance. In other words, he was selling the “fran-
                                    chise” to market fraudulent union-sponsored health plans.




                                                      43
Semiannual Report to the Congress                                                      April 1 - September 30, 1996



                                    DIVISION OF PROGRAM FRAUD

                                    The Division of Program Fraud (PF) is responsible for conducting
                                    investigations into allegations of fraud, waste, and abuse in DOL
                                    programs and allegations of criminal activity or serious misconduct
                                    by DOL employees. During this reporting period, PF continued to
                                    focus investigative attention in furtherance of its nationwide medi-
                                    cal provider fraud project to investigate providers defrauding
                                    DOL-administered health care programs. The PF also continued to
                                    devote significant resources to the investigation of FECA claimant
                                    fraud, Job Training and Partnership Act (JTPA) and Unemploy-
                                    ment Insurance (UI) program fraud, and to its on-going employee
                                    integrity investigations in the mine safety and health program.


  MEDICAL                           The Department of Labor’s Office of Workers’ Compensation Pro-
  PROVIDER FRAUD                    grams (OWCP) administers three major disability benefit programs
                                    that compensate and pay medical treatment related costs for work-
                                    ers who experience a job-related injury or get a job-related disease.
                                    These benefit programs include the Federal Employees’ Compen-
                                    sation Act (FECA) program, which provides medical benefits and
                                    disability compensation to Federal employees who are injured on
                                    the job; the Longshore and Harbor Workers’ Compensation Act
                                    program, which provides benefits to certain injured and disabled
                                    maritime employees; and the Black Lung Benefits program, which
                                    provides medical costs and monthly compensation to former coal
                                    miners disabled from pneumoconiosis (more commonly known as
                                    Black Lung).

                                    Fraud within the health care community is estimated to cost the
                                    American taxpayers millions of dollars annually. In an attempt to
                                    help thwart this fraudulent activity, PF began a nationwide investi-
                                    gative initiative designed to identify, prosecute, and remove from
                                    these programs, those medical and health care providers who have
                                    been convicted of fraud. PF has several current investigations in
                                    this area.

                                    The following cases are examples of successful investigations in-
                                    volving medical providers who attempted to defraud the various
                                    DOL compensation programs during this reporting period.




                                                     44
Semiannual Report to the Congress                                                         April 1 - September 30, 1996



  New York Doctor                   Dr. Viola Wiegand, a licensed psychologist, was arrested by OIG
  Caught in FECA and                agents from the Department of Labor (DOL) and Department of
  Medicare Scam                     Health and Human Services (HHS) at her residence in Brooklyn,
                                    New York. Dr. Wiegand was charged in a 120-count indictment
                                    with making false claims, mail fraud, false statements and with us-
                                    ing a false social security number for the purpose of collecting benefits
                                    to which she was not entitled.

                                    An investigation established that between 1991 to 1996, Dr. Wiegand
                                    used four aliases and five different social security numbers and over
                                    a 2-year period submitted false forms to the Office of Workers’ Com-
                                    pensation Program (OWCP) and HHS claiming reimbursement of
                                    over $1.4 million for services or therapy sessions reportedly pro-
                                    vided to Federal Employees’ Compensation Act (FECA) claimants
                                    and Medicare patients.

                                    In addition, numerous bills were submitted to HHS for counseling
                                    that was never provided. In return for using patient’s names and
                                    identification to bill OWCP or HHS, Wiegand allegedly paid 25%
                                    of what she received from the Federal government in kickbacks to
                                    claimants and recipients. U.S. v. Wiegand (E.D. New York)

                                    The following cases update investigations detailed in our previous
                                    reports.

  Texas Doctor Sentenced            Dr. Keith Gene Winterowd, a licensed osteopathic physician, was
                                    sentenced to 30 months incarceration, eight years supervised release,
                                    ordered to pay a fine of $50,000, restitution totalling $6,640 and a
                                    special assessment fee of $1,450. The sentencing comes after Dr.
                                    Winterowd’s six day trial in which a jury returned a guilty verdict on
                                    five counts of false claims and twenty-four counts of mail fraud.

                                    An undercover investigation revealed that Dr. Winterowd devised a
                                    scheme which involved the creation and submission of fraudulent
                                    bills for services and treatments never rendered to FECA claimants
                                    and state workers compensation claimants. In fact, Dr. Winterowd
                                    did not have most of the therapy equipment allegedly used in treat-
                                    ments he had billed for. He was paid approximately $387,333 for
                                    his alleged medical services to Federal and state claimants over a
                                    four-year period.




                                                      45
Semiannual Report to the Congress                                                          April 1 - September 30, 1996


                                    This was a joint investigation with the U.S. Postal Inspection Ser-
                                    vice and the Texas Workers’ Compensation Commission. U.S. v.
                                    Winterowd (N.D. Texas)


   Neurologist Pays Civil           As reported in our previous report, Dr. Sander E. Bergman, a neu-
   Damages                          rologist practicing in Bremerton, Washington was fined and sentenced
                                    to prison for filing false claims with the OWCP. Following the crimi-
                                    nal conviction, Bergman entered into a settlement agreement to pay
                                    civil damages and penalties of $15,000. U.S. v. Bergman (W.D. Wash-
                                    ington)


  Doctor Sentenced to               Dr. Dominic W. DiLeo, a Uniontown, Pennsylvania cardiologist,
  Serve Ten Years                   was sentenced to serve 121 months in a Federal correctional facility,
                                    ordered to pay a special assessment fine of $850 and serve a term of
                                    three years probation following his release from prison. He was
                                    convicted of seventeen counts of mail fraud and distribution of nar-
                                    cotics involving a scheme to defraud the OWCP’s Black Lung
                                    Program, Medicare, Medicaid and various private insurance com-
                                    panies. As a result of the sentence DiLeo agreed to voluntarily waive
                                    all appeal rights relating to the trial, legal representation, verdict and
                                    sentencing. U.S. v. DiLeo (W.D. of Pennsylvania)


                                    In addition to its aggressive approach to medical provider fraud, a
  CLAIMANT FRAUD                    significant amount of PF investigative resources also continue to be
                                    devoted to the investigation of claimant related fraud. The follow-
                                    ing cases, during this reporting period, illustrate how claimants
                                    continue to defraud the FECA program.

                                    Seven former Department of Veterans Affairs (DVA) employees of
  Seven Veterans Affairs
  Employees Arrested for            the Veterans Affairs Medical Centers in the metropolitan New York
  Defrauding FECA                   City area were arrested for their part in FECA related fraud schemes.
  Program                           The charges against six of these employees, Rosetta Crosby, Harvey
                                    Daniels, Ralph Difuccia, Salvatore Machi, William H. Smart and
                                    Blanche Volpe, involve the defendants submitting false statements
                                    to the OWCP regarding their employment status. These defendants
                                    left their respective positions after allegedly suffering on-the-job in-
                                    juries that rendered them disabled and then collected workers’
                                    compensation benefits. In fact, the investigation uncovered that each
                                    had been either employed or self-employed in such diverse fields as
                                    electrical contracting, nursing, restaurant business, and home health-
                                    care services while collecting workers’ compensation benefits.


                                                      46
Semiannual Report to the Congress                                                       April 1 - September 30, 1996



                                    Another defendant, Alice Machi, employed as the Chief of Labor
                                    Relations at the Veterans Affairs Medical Center, was charged with
                                    conspiracy. In her official capacity, Alice Machi assisted in process-
                                    ing her husband’s claim, knowing that the documents he was
                                    submitting were false. Together, Alice and Salvatore Machi have
                                    been charged in one complaint with conspiracy to commit workers’
                                    compensation fraud. If convicted, each of the defendants, except
                                    Salvatore Machi, face a maximum sentence of 5 years in prison and
                                    a maximum fine of $250,000. Salvatore Machi faces a maximum
                                    sentence of 10 years in prison and a maximum fine of $250,000.
                                    Simultaneous with the filing of the criminal complaints, the United
                                    States has filed civil complaints against Salvatore and Alice Machi,
                                    William H. Smart and Ralph Difuccia under the False Claims Act.
                                    The Government’s suits seek treble the amount of actual damages
                                    incurred by the United States, plus a $10,000 civil penalty for each
                                    false claim that the defendants presented to the government, along
                                    with costs.

                                    This was a joint effort with the Office of Inspector General at the
                                    Department of Veterans Administration. U.S. v. Machi al et. (S.D. New
                                    York)

                                    Impact: The fraudulent applications submitted resulted in the pay-
                                    ment of hundreds of thousands of dollars in workers’ compensation
                                    to which the defendants were not legally entitled. As a result of the
                                    fraud uncovered during the investigation, the DOL OIG has pro-
                                    vided further guidance and assistance to DVA-OIG in their overall
                                    FECA investigative efforts.

  Navy Carpenter Falsifies          Robert Olszewski, a carpenter with the U.S. Department of the Navy,
  Claim                             plead guilty to one felony count of making a fraudulent application
                                    for benefits under FECA. Olszeski began receiving FECA benefits
                                    in 1988 when he allegedly sustained a lower back injury while lift-
                                    ing a five-gallon container of roof cement. He received in excess of
                                    $163,000 in FECA benefits while claiming to be temporarily totally
                                    disabled.

                                    An investigation discovered that while Olszewski received FECA
                                    benefit payments he was operating a delivery service business based
                                    in New Jersey. Moreover, while under surveillance, he was found
                                    to be personally making pickups and deliveries on a regular route
                                    servicing medical and dental offices. Olszewski did not report his


                                                     47
Semiannual Report to the Congress                                                       April 1 - September 30, 1996


                                    employment or income received while operating his business, as
                                    required by OWCP. A sentencing date has been set for October.

                                    This was a joint investigation with the Naval Criminal Investigative
                                    Service. U.S. v. Olszeski (D. New Jersey)

  Former FAA Traffic                Larry Garrett, a former Federal Aviation Administration (FAA) air
  Controller Indicted for           traffic controller who collected over $830,000 in FECA benefits,
  FECA Fraud                        was charged in a 15-count indictment with mail fraud and making
                                    false statements to obtain FECA benefits. Garrett is alleged to have
                                    falsified forms submitted to OWCP by failing to report his employ-
                                    ment status and earnings associated with a metal shelving business
                                    heowned and operated since 1976. Garrett had been receiving tax-
                                    free FECA benefits stemming from an on-the-job back injury he
                                    received in 1973 while employed with FAA. U.S. v. Garrett (E.D. New
                                    York).


  Former Marine Corps               Johnny Armstrong, a former civilian employee with the U.S. Ma-
  Civilian Employee                 rine Corps Base at Camp Pendleton, California, was sentenced in
  Sentenced to Prison               Texas as a result of his guilty plea to one count of making a false
                                    statement in connection with his workers’ compensation claim.
                                    Armstrong was sentenced to serve 12 months and a day in jail, 3
                                    years supervised probation upon release from prison, and to pay
                                    $27,636 restitution.

                                    A joint OIG and Naval Investigative Service investigation disclosed
                                    that Armstrong, during a 3-year period and while receiving FECA
                                    benefits for an alleged on-the-job injury to his knee, was actually
                                    employed as a truck driver, heavy equipment operator, and laborer
                                    with eight different companies in the Little Rock, Arkansas area.
                                    Armstrong has failed to report his true employment status and in-
                                    come to OWCP as required. U.S. v. Armstrong (N.D. Texas)

  Former Mailhandler                Gloria Thomas-McNair was sentenced to 15 months’ incarceration,
  Sentenced for Falsifying          to be followed by 3 years’ probation and ordered to pay restitution
  FECA Claims                       of $12,005 after she was found guilty of one count of conspiracy,
                                    seven counts of false statements and six counts of filing false state-
                                    ments to obtain FECA benefits. Her conviction came after a 7-day
                                    trial in which evidence presented showed she was employed at Tren-
                                    ton State Prison (TSP) as a licensed practical nurse (LPN) while
                                    collecting benefits under FECA.



                                                     48
Semiannual Report to the Congress                                                          April 1 - September 30, 1996



                                    Thomas-McNair began receiving continuation-of-pay (COP) and
                                    FECA benefits in 1990 due to an injury to her neck and back from
                                    working as a mailhandler at the Postal Service in New Jersey. Be-
                                    tween November 1990 and September 1993, she received over
                                    $8,300 in COP payments while claiming three different injuries.
                                    However, a joint investigation with the Postal Inspection Service
                                    found that between 1991 to 1993 when Thomas-McNair was re-
                                    ceiving benefits under FECA she was working as a LPN at TSP.

                                    As a part of this investigation, Dr. Wayne L. Gibbons, Thomas-
                                    McNair’s attending physician, was sentenced to 3 years’ probation,
                                    to include 4 months of house arrest, and fined $10,000 after plead-
                                    ing guilty to one count of making false statements to obtain FECA
                                    benefits. Dr. Gibbons provided the relevant forms, reports, and let-
                                    ters which stated that his patient could not work at all or only workin
                                    a limited duty capacity. Dr. Gibbons knew his patient’s condition
                                    since he worked with her on 49 shifts at the TSP Medical Unit.

                                    The initial investigation was conducted by the U.S. Postal Inspec-
                                    tion Service. The OIG joined the investigation subsequent to the
                                    initial indictment. U.S. v. Thomas-McNair (D. New Jersey) and U.S. v. Gib-
                                    bons (D. New Jersey)


  Former Postal Employee            Donna Lynn Jordan, a former U.S. Postal Service employee, was
  Sentenced for FECA                sentenced following her guilty plea to a Criminal Information charg-
  Fraud                             ing her with making a false statement to obtain FECA benefits. A
                                    joint OIG and Postal Inspection Service investigation found that
                                    Jordan, who received more than $70,000 in FECA benefits over a
                                    four-year period, was also employed as a waitress in twelve differ-
                                    ent Maryland establishments. In an effort to hide her employment
                                    from the OWCP, Jordan worked under the name and Social Secu-
                                    rity Number of her deceased sister. Jordan was sentenced to 5 years
                                    of probation and was ordered to make a restitution of $4,886. The
                                    Department of Labor has begun proceedings to recover the remain-
                                    ing money by declaring a forfeiture of over $64,000.

  FECA Recipients Issued            In two instances where criminal prosecution was declined by the
  Forfeiture Orders in              cognizant U.S. Attorneys’ after OIG investigations, OWCP initi-
  Excess of $300,000                ated administrative action based on the results of those investigations.
                                    In one matter, OWCP issued a compensation order to a former OSHA
                                    employee declaring a forfeiture of the FECA benefits he had re-
                                    ceived over a 13-year period. OWCP established an overpayment


                                                      49
Semiannual Report to the Congress                                                      April 1 - September 30, 1996



                                    in excess of $307,000 after the investigation disclosed that he had
                                    significant earnings while employed at a floral and bridal shop while
                                    also receiving FECA benefits.

                                    OWCP also declared a forfeiture order of over $313,000 and issued
                                    a retroactive wage-earning capacity decision in the case of a former
                                    Postal Worker. The action by OWCP was taken after a joint OIG
                                    and Postal Inspection Service investigation determined that the em-
                                    ployee concealed income received while employed as a producer,
                                    writer, studio engineer and artist.


                                    The following cases update significant investigations detailed dur-
                                    ing the last reporting period.

  Former U.S. Marshal               Albert P. Slugocki, a former U.S. Marshal and a decorated Vietnam
  Draws a Year and a Day            war hero, was sentenced to a year and a day in Federal prison after
  For Fraud                         being found guilty of FECA fraud. In addition to the prison time,
                                    he received three years’ probation and was ordered to pay $217,843
                                    in restitution. He was convicted by a Federal jury on multiple charges
                                    of mail fraud and filing false statements to OWCP.

                                    An investigation established that after being declared totally dis-
                                    abled and receiving FECA benefits from a back injury while
                                    employed as a U.S. Marshal, he actively operated a tour boat on the
                                    Amazon River for a company that specialized in Peruvian and
                                    Amazon vacations. In addition, to the income he earned operating
                                    tour boats, he also ran a jungle survival training school. Slugocki,
                                    received more than $200,000 in FECA benefits since 1981.

                                    This was a joint investigation with the Office of Inspector General
                                    at the Department of Justice. U.S. v. Slugocki (S.D. Florida)

  Veteran Sentenced for             William Glenn Hill, Sr, a veteran and former civilian guard at an
  Committing FECA                   army base in Georgia, was sentenced to serve 21 months in prison
  Fraud                             following his guilty plea to charges of mail fraud and false state-
                                    ments to obtain benefits from OWCP and the Veteran Administration
                                    (VA).

                                    Hill defrauded the Veteran Administration’s disability program and
                                    the OWCP of over $130,000 between 1989 and 1995. Our joint
                                    investigation with the OIG at VA determined that Hill filed false


                                                     50
Semiannual Report to the Congress                                                      April 1 - September 30, 1996



                                    certifications of employment with the VA and OWCP by conceal-
                                    ing his ownership and operation of several construction companies
                                    located in Georgia, Florida, and South Carolina.

                                    In addition, our investigation revealed that Hill has been prosecuted
                                    and convicted by the State Attorney in Florida for defrauding hurri-
                                    cane Andrew victims out of approximately $40,000. Also, while
                                    operating construction companies in the Columbus, GA, Hill de-
                                    frauded a local building supply company out $38,000. Currently,
                                    there are two State charges pending against him for defrauding sev-
                                    eral local home owners with remodeling contracts of their homes.
                                    U.S. v. Hill (M.D. Georgia)


  Former USDA Employee              Warren P. Tilghman, a former U.S. Department of Agriculture em-
  Convicted of FECA                 ployee, was convicted on two counts of FECA fraud after a trial in
  Fraud                             Federal District Court. He was sentenced to 15 months incarcera-
                                    tion to be followed by 1 year supervised probation. Tilghman was
                                    also ordered to pay restitution in the amount of $84,093.

                                    Tilghman reportedly suffered an on-the-job back injury in 1982 while
                                    working as a Special Assistant. Following his injury he began re-
                                    ceiving FECA benefits. An investigation discovered that for the 11
                                    years he was receiving FECA benefits, Tilgham was employed as
                                    an equal employment opportunities investigator. He did not report
                                    his employment or ability to work as required by OWCP. As a
                                    result of his conviction, Tilghman’s benefits were terminated and an
                                    overpayment decision of $422,686 was issued by OWCP.

                                    This investigation was conducted jointly with the Department of
                                    Agriculture’s OIG and the Defense Criminal Investigative Service.
                                    U.S. v. Tilgham (D. District Columbia)

                                    Longshore and Harbor Workers’ Compensation Act

                                    Enacted in 1927, the Longshore and Harbor Workers’ Compensa-
                                    tion Act (LHWCA) provides compensation for lost wages, medical
                                    benefits, and rehabilitation services to longshore, harbor, and other
                                    maritime workers who are injured during their employment, or who
                                    contract an occupational disease related to their employment.
                                    LHWCA benefits are paid directly by an authorized self-insured
                                    employer, insurance carrier, or in certain circumstances, by a Spe-
                                    cial Fund administered by the Department.


                                                        51
Semiannual Report to the Congress                                                       April 1 - September 30, 1996



  Marine Resurfacing Firm           Surface Technologies Corporation, Inc., a Navy contractor engaged
  Agrees to Civil Settlement        in resurfacing ship decks, and its President, Christos Hionides, of
                                    Jacksonville, Florida, entered into a $200,000 civil agreement with
                                    the U.S. Attorney’s Office for the Middle District of Florida relative
                                    to alleged violations of the Longshore and Harbor Workers’ Com-
                                    pensation Act (Act). The agreement was reached after it was
                                    determined that Hionides failed to acquire appropriate workers’ com-
                                    pensation insurance as required by the Act.

                                    A joint OIG investigation with the Naval Criminal Investigative
                                    Service disclosed that during a 4-year period, Hionides failed to pro-
                                    cure the required workers’ compensation insurance and falsely
                                    certified on Navy contracts that he had. Instead, Hionides paid for
                                    basic workers’ compensation insurance and submitted the claims of
                                    injured workers through various state workers’ compensation pro-
                                    grams rather than pay the higher premiums attendant to insurance
                                    required by the Act. U.S. v. Hionides (M.D. Florida)

  Mississippi Longshore             Kenneth E. Grizzle, a former pipefitter of Littin/Ingall’s Shipbuild-
  Claimant Sentenced                ing Company in Mississippi, was sentenced following his conviction
                                    on charges of filing false statements to obtain the Longshore and
                                    Harbor Workers’ Act compensation from an alleged 1993 injury
                                    while working at the shipbuilding company. He was sentenced to
                                    Federal prison for 22 months to be followed by 36 months proba-
                                    tion and ordered to pay $7,000 in restitution. Grizzle was sentenced
                                    while on a stretcher, after claiming to have fallen while in Federal
                                    custody.

                                    A PF investigation, conducted jointly with the DOJ Health Care
                                    Task Force, revealed that Grizzle reportedly suffered a back injury
                                    while employed at the shipbuilding company. However, he failed
                                    to report back injuries he had sustained from prior auto accidents,
                                    including one $180,000 settlement. Grizzle withheld this informa-
                                    tion from his employer, in his Longshore claim, during medical exams
                                    and in sworn testimony. U.S. v. Grizzle (S.D. Mississippi)

                                    Impact: Local ship building officials report a 25-30 percent decline
                                    in workers’ compensation claims being filed since Grizzle’s indict-
                                    ment.




                                                     52
Semiannual Report to the Congress                                                       April 1 - September 30, 1996



  EMPLOYEE                          Most employees who choose a career in the Federal Public Service
  INTEGRITY                         are dedicated and hard-working individuals devoted to helping
  INVESTIGATIONS                    Americans in many different ways. However, there are some indi-
                                    viduals who are empowered with the Public’s trust to perform their
                                    duties in an ethical manner, but do not do so. Therefore, the OIG
                                    continues to conduct integrity-related investigations of corrupt and
                                    unscrupulous DOL employees and others who fail to properly exer-
                                    cise their official responsibilities in exchange for personal gain or
                                    other benefits. Examples of some of the more significant integrity
                                    investigations during this period follow.

  Mine Safety Inspector             Everette Shrewsbury, a Coal Mine Safety and Health Inspector, was
  Sentenced                         sentenced after he entered a guilty plea charging him with one count
                                    of filing a false inspection report and one count of accepting a bribe
                                    while in the performance of his official duties. He was sentenced to
                                    15 months in a Federal correctional facility, fined $1,000, and placed
                                    on three years probation following his prison term.

                                    Evidence was obtained during a two-month OIG investigation which
                                    substantiated allegations that Shrewsbury was accepting cash and
                                    gratuities from mine operators in exchange for not performing his
                                    required inspections. U.S. v. Shrewsbury (S.D. West Virginia).

  Claims Examiner Admits            A claims examiner resigned from a position with the Office of Work-
  to Stealing Credit Card           ers’ Compensation Programs (OWCP) after admitting to stealing a
                                    co-worker’s American Express credit card. The OIG investigation
                                    revealed that this individual went on a shopping spree and charged
                                    over $800 by purchasing merchandise at such places as Ann Taylor,
                                    Victoria’s Secret, Banana Republic, and Chesapeake Knife & Tool.

                                    Our investigation of this case, referred to the OIG by the OWCP,
                                    continues.

  Former OFCCP                      Pamela Alyse Flowers, a former Equal Opportunity Specialist with
  Employee Pawning                  the Office of Federal Contract Compliance Programs (OFCCP) in
  Government Equipment              Omaha, Nebraska, was charged with receiving unlawfully taken
                                    property after an OIG investigation determined that she had pawned
                                    an OFCCP portable computer. Further investigation disclosed that
                                    Flowers and her husband, Ricardo, had pawned government prop-
                                    erty, including computers, a printer, and a VCR on 64 different
                                    occasions. Normally, Flowers would purchase the property back
                                    from the pawn shop after being paid and return it to the OFCCP


                                                     53
Semiannual Report to the Congress                                                            April 1 - September 30, 1996



                                    office before the property was reported as missing. Flowers resigned
                                    from her position with OFCCP after being given a notice to termi-
                                    nate her from Federal employment. Nebraska v. Flowers (Nebraska)

  DOL Timekeeper                    Christine Johnson, a former timekeeper with the Office of the Assis-
  Sentenced for Time and            tant Secretary for Administration and Management, pled guilty to a
  Attendance Fraud                  charge of felony theft. An OIG investigation determined that
                                    Johnson, over a 3-year period, altered her time and attendance records
                                    allowing her to steal annual and sick leave valued at over $2,700.
                                    Johnson was sentenced to serve 3 months of probation and ordered
                                    to make full restitution in the amount of $2,707. Following her
                                    conviction, she also resigned from the Department. This investiga-
                                    tion furthers the OIG’s continuing initiative to ferret out time and
                                    attendance fraud within the Department of Labor’s National Office.
                                    District of Columbia v. Johnson (District of Columbia)


  BLS Employee Found                George Feuerstahler, a former Bureau of Labor Statistics (BLS)
  Guilty of Theft                   economist, was sentenced to 4 years’ probation and ordered to pay
                                    a $5,000 fine after he plead guilty to one count of theft of govern-
                                    ment computer equipment. Feuerstahler stole computer equipment
                                    totalling approximately $4,500 and sold the stolen equipment at vari-
                                    ous pawn shops. In addition, our investigation also disclosed that
                                    Feuerstahler pawned his assigned laptop computer on two occa-
                                    sions, failing to redeem it the second time. The various pawn shops
                                    returned the stolen computer equipment to the appropriate authori-
                                    ties.

                                    This was a joint investigation with the Federal Protective Service.
                                    (U.S. v. Feuerstahler (N.D. Texas)


  Two Sentenced After               Gail Thomas, a former Wage & Hour Compliance Specialist, and
  Guilty Pleas in Public            Claudia White, a former OFCCP Administrative Officer in New
  Assistance Scam                   York, were sentenced for their respective parts in scams to illegally
                                    collect public assistance funds and benefits. Thomas had previously
                                    pled guilty to one felony count of theft of government funds and
                                    was sentenced to 6 months’ home confinement, 5 years’ probation
                                    and ordered to pay $38,029 in restitution. White, who pled guilty to
                                    a misdemeanor theft of government funds charge, was sentenced to
                                    4 years’ probation and ordered to pay $5,891 in restitution. Both
                                    defendants were also ordered to obtain either drug or mental health
                                    treatment. Subsequently, both have resigned from their positions with
                                    the Department.


                                                        54
Semiannual Report to the Congress                                                       April 1 - September 30, 1996



                                    Thomas was charged after an investigation disclosed that she had
                                    schemed to fraudulently collect thousands of dollars in rental assis-
                                    tance, Aid to Dependent Children benefits, Educational benefits,
                                    and Food Stamps by concealing her income and employment sta-
                                    tus. White was charged with assisting Thomas with her schemes
                                    and subsequently pled guilty to illegally obtaining AFDC and Food
                                    Stamp benefits.

                                    This was a joint investigation with the OIG at the U.S. Department
                                    of Housing and Urban Development. U.S. v. Thomas, U.S. v. White (S.D.
                                    New York)


  Former DOL Special                Joseph R. Tersago, formerly employed as a senior criminal investi-
  Agent Guilty of FECA              gator with DOL’s OIG, plead guilty to a charge of making false
  Fraud                             statements to obtain FECA benefits. As a special agent, Tersago
                                    conducted criminal investigations of individuals who had defrauded
                                    the FECA program.

                                    An investigation disclosed that Tersago, who was claiming to be
                                    totally disabled as a result of a job-related back injury, was actually
                                    attending a community college near his home and engaging in physi-
                                    cal activities such as walking long distances, shopping, driving and
                                    swimming. When asked about his physical activities and limita-
                                    tions, as part of the OIG’s efforts to try to employ him in an
                                    accommodated position, Tersago falsely stated that he could not work,
                                    attend training classes, walk more than about a block or drive a ve-
                                    hicle for more than a few minutes. He is scheduled to be sentenced
                                    in October. U.S. v. Tersago (E.D. New York)


  SERVICE                           Enacted in 1965, the Service Contract Act, requires service contrac-
  CONTRACT ACT                      tors to provide their employees with certain mandatory prevailing
                                    wage rates and fringe benefits for work performed under any con-
                                    tract, in excess of $2,500, with the Federal government. The level
                                    of prevailing wages and fringe benefits are determined by the Em-
                                    ployment Standards Administration.

  Joint Venture Barred              Cornelius Hall, who managed a $36 million food service contract
  from Government                   where several hundred people were employed at staff mess halls at
  Contracting                       an Army base in Washington State, was ordered to make full restitu-
                                    tion of $344,000 and fined $10,000, after he pled guilty to making
                                    false statements in connection with an employee benefit plan. Hall’s


                                                      55
Semiannual Report to the Congress                                                       April 1 - September 30, 1996



                                    company, COBARC Services, is also in the process of being de-
                                    barred from government contracting as a result of his guilty plea.

                                    This food service contract was subject to the Service Contract Act,
                                    which requires wages and fringe benefits to be paid in accordance
                                    with the collective bargaining agreement and the DOL Wage Deter-
                                    mination for all employees.

                                    The OIG investigation established that during the course of the con-
                                    tract, Hall and Frank Russell, a managing partner who joined his
                                    company, Professional Services Unified (PSU) with Hall’s, directed
                                    managers to advise temporary employees that they were ineligible
                                    for fringe benefits and they did not make the appropriate contribu-
                                    tions to the pension, health, welfare, and annual benefits plans. The
                                    Army reimbursed them on fraudulent cost and pricing data and in-
                                    voices submitted.

                                    Consequently, both Hall and Russell have been suspended from
                                    further government contracting. Russell entered into a settlement
                                    agreement to pay $225,000 in the civil case filed against him as a
                                    result of this investigation. In addition, while Russell was under
                                    investigation, efforts were coordinated with the Naval Investigative
                                    Service to identify information regarding ongoing Navy contracts
                                    held by PSU. Due to the suspension of PSU, two service contracts,
                                    totalling $1,757,622, scheduled to be renewed for two option years
                                    were not awarded and the government has deobligated this amount.
                                    U.S. v. Hall (W.D. Washington)



  UNEMPLOYMENT                      The Unemployment Insurance (UI) program is a unique Federal-
  INSURANCE                         State administered program funded by State taxes on employer
  FRAUD                             payrolls, with the Federal Treasury paying the benefits of ex-service
                                    members, ex-Federal workers and for extended claims. The UI sys-
                                    tem is the initial financial support provided to workers who lose
                                    their jobs through no fault of their own. UI benefits are authorized
                                    under the provisions of the Social Security Act of 1935. As with
                                    any multi-billion dollar Federal benefit program, there are those, both
                                    claimants and those responsible for the administration of the pro-
                                    gram, who would attempt to defraud it. OI continued to devote
                                    investigative resources to rid the program of these unscrupulous in-
                                    dividuals. The following cases represent some of the OIG’s more
                                    significant UI investigations conducted during this period.


                                                       56
Semiannual Report to the Congress                                                             April 1 - September 30, 1996



  Florida Man Sentenced             Carlos J. Perry, of Tampa, Florida, was sentenced following his guilty
  for His Involvement in            plea to 14 counts of mail fraud and using false Social Security num-
  Massive UI Fraud                  bers in a fictitious employer scheme to defraud the UI program. He
  Scheme
                                    was sentenced to serve 44 months in Federal prison, followed by 36
                                    months supervised release, and ordered to pay restitution in the
                                    amount of $30,384. A total of 36 states were targeted by Perry
                                    before his arrest and approximately $248,000 in claims were paid or
                                    filed fraudulently.

                                    Perry, a “Habitual Offender” in Florida, has approximately 25 prior
                                    convictions for larceny crimes. This investigation was conducted
                                    with the U.S. Postal Inspection Service and the Social Security
                                    Administration’s OIG. U.S. v. Perry (M.D. Florida)

  Defendant Sentencing in           Yvette Carter was sentenced for her involvement with 4 other indi-
  Texas UI Scheme                   viduals, including a former Texas Employment Commission (TEC)
                                    employee, in a conspiracy to embezzle more than $427,000 of UI
                                    funds from the Texas Employment Commission. Carter was sen-
                                    tenced to serve 5 years of probation, including 4 months home
                                    detention with electronic monitoring. She was also ordered to pay
                                    restitution to the TEC of $16,077.18. Additional terms of Carter’s
                                    probation include a restriction from opening any lines of credit with-
                                    out probation office approval.

                                    In a related matter, after a two-day trial, Marie Ann Bowser was
                                    found guilty on counts of conspiracy, theft, embezzlement, and bank-
                                    ruptcy fraud for her part in the above mentioned UI scheme. As part
                                    of the scheme, Bowser conspired with Carter and others to receive
                                    rental payment checks for non-existent facility rentals, stole $135,000
                                    from the scheme, fraudulently certified as to the employment status
                                    of one of her co-conspirators so he could collect UI benefits, and
                                    failed to report the existence of a company she created to facilitate
                                    the embezzlement scheme incident to filing Chapter 13 bankruptcy.
                                    U.S. v. Carter (W.D. of Texas) and U.S. v. Bowser (W.D. Texas)



  JOB TRAINING                      PF continued to focus attention on investigations of wrong-doing
  PARTNERSHIP ACT                   and fraud within DOL’s Employment and Training Administration
  FRAUD                             (ETA) programs administered under the Job Training Partnership
                                    Act (JTPA). The JTPA programs are designed to assist unskilled
                                    and economically disadvantaged youths and adults to receive train-
                                    ing and eventual employment.


                                                       57
Semiannual Report to the Congress                                                       April 1 - September 30, 1996


                                    Such JTPA programs continue to be vulnerable to theft and em-
                                    bezzlement of Federal funds. Recent investigations in this area follow.

  Director of Development           Johnny Bradfield, former Executive Director of the Heart of Geor-
  Commission Indicted for           gia Regional Development Commission (RDC) and former Mayor
  JTPA Fraud                        of McRea, Georgia, was indicted by a Grand Jury, for the State of
                                    Georgia, on charges of filing false statements in an attempt to de-
                                    fraud the JTPA program. The RDC oversees DOL funds for a 7
                                    county area in South Central Georgia. Annual DOL funding to the
                                    RDC exceeded $1.2 million.

                                    The indictment stemmed from an OIG investigation into allegations
                                    that RDC management officials were misusing JTPA funds. The
                                    investigation found that Bradfield allegedly filed false claims for RDC
                                    related expenses and travel. Among these phony claims were re-
                                    ceipts for expenses believed to have actually been incurred by
                                    Bradfield’s wife. In addition to his indictment, Bradfield has been
                                    terminated from the RDC. If convicted on all counts, Bradfield faces
                                    a maximum sentence of 30 years imprisonment and fines of $6,000.
                                    Georgia v. Bradfield (Georgia).


   JTPA Participant                 Tami Christensen, a participant in the Shoshone-Bannock Tribe’s
   Convicted for JTPA               JTPA Vo-tech program, was convicted by a Federal Jury of theft of
   Fraud                            JTPA funds. Christersen received Federal funds to attend classes as
                                    part of a JTPA program to providemeaningful employment and train-
                                    ing services to eligible Native Americans. The OIG determined that
                                    for two years she had inflated classroom hours and forged instructor
                                    signatures on time cards to increase the stipends she received for
                                    attending Idaho State University. These alterations enabled her to
                                    obtain $3,624 in JTPA funds to which she was not entitled. U.S. v.
                                    Christensen (D. Idaho)


  JTPA Contractor Uses              Benjamin Ward, a JTPA On-the-Job-Training (OJT) contractor, was
  Aliases to Defraud DOL            sentenced following his guilty plea on a charge of theft of govern-
                                    ment funds resulting from a scheme to defraud the JTPA program
                                    out of over $120,000. Ward was sentenced to serve 21 months in
                                    prison, and be placed under three years probation after his release.
                                    He was also ordered to pay $122,500 in restitution to the govern-
                                    ment.

                                    The OIG conducted an investigation into OJT contract fraud allega-
                                    tions following a report from the Employment and Training


                                                       58
Semiannual Report to the Congress                                                       April 1 - September 30, 1996



                                    Administration of alleged OJT contract fraud by several employers.
                                    The OIG investigation revealed that for a 4-year period, Ward used
                                    several aliases and created six fictitious business names in order to
                                    obtain OJT contracts from three different local Service Delivery
                                    Areas (SDAs). None of these businesses were registered with the
                                    State of California Employment Development Department, nor did
                                    any have city business licenses.

                                    Ward submitted reimbursement invoices to the three SDAs claiming
                                    to have hired and trained 37 JTPA participants at the pay rate of
                                    $10.00 to $22.00 per hour. However, the OIG investigation deter-
                                    mined that Ward never paid the participants the contracted wage nor
                                    did he employ them for the number of contracted hours. U.S. v. Ward
                                    (N.D. California).


  Virginia Contractor               As part of a plea agreement, Gerald D. Griswold, owner and opera-
  Pleas Guilty to JTPA              tor of Administration Training and Services, Inc. (AT&S), pled guilty
  Fraud                             following his indictment on charges of stealing Employment and
                                    Training funds. AT&S is a for-profit company which contracted
                                    with the New River/Mt. Rogers Private Industry Council (PIC), in
                                    Virginia, to act as the administrative entity for the PIC. Griswold is
                                    accused of selling a JTPA contract, worth approximately $100,000,
                                    to a former AT&S employee for $15,000. Pursuant to the plea agree-
                                    ment, Griswold paid a fine of $30,000 at the time of his guilty plea.

                                    He faces a possible maximum sentence of one year in prison, a
                                    $100,000.00 fine, and a period of supervised release. This investi-
                                    gation was conducted jointly with the Virginia State Police, Bureau
                                    of Criminal Investigation. U.S. v. Griswold (W.D. Virginia).




                                                         59
Semiannual Report to the Congress                                               April 1 - September 30, 1996



  INVESTIGATIONS STATISTICS

                           Analysis of Complaint Activity
                           Breakdown of Allegation Reports by Source:


                           Hotline Operations - Calls and Letters
                           from Individuals or Organizations                          265
                           Letters from Congress                                        25
                           Letters from DOL agencies                                    12
                           Incident Reports from DOL agencies                             8
                           Reports by Special Agents and Auditors                         5

                           GAO                                                            3
                                                                        Total         318


                           Breakdown of Allegation Reports by Referral:


                            Referred to Office of Audit
                                                                                          2

                            Referred to OI Regional/Field Offices                        65

                            Referred to DOL Program Management                         145

                            Referred to other agencies                                   43

                            No further action required                                   39

                            Pending disposition at end of period                         24

                                                                        Total          318




                                                      60
                                                       60
Semiannual Report to the Congress              April 1 - September 30, 1996




                                    APPENDIX
Semiannual Report to the Congress                                                                                      April 1 - September 30, 1996



  REPORTING REQUIREMENTS

Requirement Under the Inspector General Act of 1978
Section 4(a)(2) - Review of Legislation and Regulation ...................................................................... None

Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies ......................................................... ALL

Section 5(a)(2) - Recommendations With Respect to Significant Problems,
 Abuses, and Deficiencies ................................................................................................................... ALL

Section 5(a)(3) - Prior Recommendations Not Yet Completed .................................................................. 68

Section 5(a)(4) - Matters Referred to Prosecutive Authorities ..................................................................... 1

Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
 Information Was Refused .................................................................................................................. None

Section 5(a)(6) - List of Audit Reports ...................................................................................................... 70

Section 5(a)(8) - Statistical Tables on Management Decisions on
 Questioned Costs ................................................................................................................................... 29

Section 5(a)(9) - Statistical Tables on Management Decisions on
 Recommendations That Funds Be Put to Better Use ............................................................................. 29

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old for
 Which No Management Decision Has Been Made ................................................................................ 66

Section 5(a)(11) - Description and Explanation for Any Significant
 Revised Management Decision ......................................................................................................... None

Section 5(a)(12) - Information on Any Significant Management Decisions with
 which the Inspector General Disagrees ............................................................................................. None


Senate Report No. 96-829
Resolution of Audits .................................................................................................................................. 29

Note: This table cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as amended, and
Senate Report No. 96-829 (Supplemental 1980 Appropriations and Rescissions Bill) to the specific pages where they are
addressed. The amount of "deliquent debts" owed to the Department can be found in the annual Consolidated Financial
Statement Audit.


                                                                          62
 Semiannual Report to the Congress                                                                                                               April 1 - September 30, 1996



  EXPLANATION OF AUDIT SCHEDULES

Questioned Costs ..................................................................................................................................................................... 29

This schedule shows the extent to which DOL management has taken steps, during the 6-month reporting period, to resolve the
costs questioned as having been improperly expended. Audit resolution occurs when management either agrees with the
auditor’s finding and disallows those costs that were questioned, or management decides that the expenditure should be
allowed. (This schedule is required by Section 5(a)(8) of the Inspector General Act, as amended.)

Funds Recommended to be Put to Better Use ........................................................................................................................ 29

This schedule depicts, by program agency, the final action activity during the 6-month reporting period for those funds that
were recommended by the auditor to be put to better use. This schedule is included in the OIG Semiannual Report to
demonstrate the flow of information to the Secretary’s Semiannual Management Report, which is issued by the Secretary as
required by Section 5(b)(3) of the Inspector General Act, as amended.

Unresolved Audits Over 6 Months .......................................................................................................................................... 66

This schedule presents a summary of all audit reports that continue to remain unresolved for more than 6 months. For these
reports, a management decision is still outstanding. (This schedule is required by Section 5(a)(10) of the Inspector General Act,
as amended.)

Significant Recommendations Resolved for Over One Year on which Corrective Action Has Not
Been Completed, as of September 30, 1996 ........................................................................................................................... 68

This schedule presents the significant audit recommendations which have been resolved for over one year and on which
corrective action has not been completed.

Final Audit Reports Issued by the OIG .................................................................................................................................. 70

This schedule is a listing, subdivided according to subject matter, of all audit reports that were issued by the OIG during the
6-month reporting period, as required by Section 5(a)(6) of the Inspector General Act, as amended. This listing also provides for
each audit report, where applicable, the total dollar value of questioned costs and the total dollar value of recommendations that
funds be put to better use.

Final Single Audit Reports ...................................................................................................................................................... 72

This schedule is a listing of audit reports that were issued during the 6-month reporting period as required by the Single Audit Act
of 1984, whereby Federal awards administered by non-federal entities are audited. This listing also provides for each audit report,
where applicable, the total dollar value of questioned costs and the total dollar value of recommendations that funds be put to
better use.




                                                                                          63
Semiannual Report to the Congress                                              April 1 - September 30, 1996



         LIST OF ACRONYMS

        Programs and Agencies Used in Appendix:
         ADMIN                      Administrative Management
         ALLDOL                     All Department of Labor Agencies
         ASP                        Assistant Secretary for Policy
         BLS                        Bureau of Labor Statistics
         BLSG                       Bureau of Labor Statistics Grantees
         CFO                        Chief Financial Officer
         CMSH                       Coal Mine Safety and Health
         CMWC                       Coal Miner Workers Compensation (Black Lung)
         CONTR                      Contracts
         DAPP                       Directorate of Administrative Procurement Programs
         DINAP                      Division of Indian and Native American Programs
         DIRM                       Directorate of Information Resource Management
         DLHWC                      Division of Longshore and Harbor Workers Compensation
         DOWP                       Division of Older Workers Programs
         DSFP                       Division of Seasonal Farmworkers Programs
         DSWCS                      Division of State Workers Compensation Standards
         EN                         Enforcement Programs
         ETA                        Employment and Training Administration
         FECA                       Federal Employees Compensation Act
         FLC                        Foreign Labor Certification
         JTPA                       Job Training Partnership Act
         OASAM                      Office of the Assistant Secretary for Administration and Management
         OCFO                       Office of the Chief Financial Officer
         OFCCP                      Office of Federal Contract Compliance Programs
         OFCMS                      Office of Financial and Administrative Management
         OFLS                       Office of Fair Labor Standards
         OFM                        Office of Facilities Management
         OFMS                       Office of Financial Management Services
         OJC                        Office of Job Corps
         OLMS                       Office of Labor-Management Standards
         OPGM                       Office of Procurement and Grant Management
         OPR                        Office of Policy Research
         OSEC                       Office of the Secretary
         OSHA                       Occupational Safety and Health Administration
         OSHAG                      Occupational Safety and Health Administration Grantees
         OSTP                       Office of Special Targeted Programs
         OT AGY                     Other agency (No direct Department of Labor funds audited )
         OWCP                       Office of Workers Compensation Programs
         PWBA                       Pension and Welfare Benefit Administration
         SCSEP                      Senior Community Service Employment Program
         SESA                       State Employment Security Agency



                                                  64
Semiannual Report to the Congress                                          April 1 - September 30, 1996




        Programs and Agencies Used in Appendix:
        SOL                         Office of the Solicitor
        SPPD                        Strategic Planning and Policy Development
        STW                         School-to-Work
        UIS                         Unemployment Insurance Service
        USES                        United States Employment Service
        VETS                        Veterans’ Employment and Training Service
        WHD                         Wage and Hour Division
        YFC                         Youth-Fair-Chance




                                                     65
Semiannual Report to the Congress                                                      April 1 - September 30, 1996



                   UNRESOLVED AUDITS OVER 6 MONTHS
                                       April 1, 1996 - September 30, 1996
                 Date              Audit                                               No. of      Questioned
  Agency Program Issued            Report Number      Name of Audit/Auditee            Rec.        Costs

  Under Investigation or Litigation:

  ETA       DSFP      31-MAR-95 18-95-013-03-365      MISSISSIPPI DELTA COUNCIL         4          229,969
  ETA       JTPA      14-SEP-94 02-94-263-03-340      JTPA OJT BROKER                   1        1,181,720

  Awaiting Resolution:

  ETA       ADMIN     25-AUG-92    12-92-021-03-001   UNEMPLOY TRUST FUND FY 911        1                0
  ETA       ADMIN     25-AUG-92    12-92-022-03-001   ETA FY 91 FIN STMTS1              2                0
  ETA       ADMIN     30-SEP-93    12-93-001-03-001   ETA FY 92 FIN STMTS1              7                0
  ETA       JTPA      22-DEC-94    04-95-003-03-340   SELECTED CONTRACTS CSRA7          3          236,538
  ETA       JTPA      28-FEB-95    04-95-013-03-340   GEORGIA DEPT OF LABOR8            3                0
  ETA       JTPA      18-MAY-95    04-93-046-03-340   GEORGIA DOL FIXED FEE CONTRACTS7 15          296,892
  ETA       JTPA      28-SEP-95    04-95-041-03-340   METRA NASHVILLE3                  4          299,771
  ETA       JTPA      25-MAR-96    04-96-016-03-340   COBB COUNTY GEORGIA2              7          302,949
  ETA       JTPA      26-FEB-96    05-96-001-03-340   CITY OF CHICAGO3                  3          679,773
  ETA       JTPA      29-MAR-94    06-94-001-03-340   NAVAJO NATION4                    3          677,574
  ETA       JTPA      25-SEP-92    06-92-010-03-340   EAST TEXAS CNCL OF GOVT2         13       $5,780,925
  ETA       DINAP     31-JAN-96    06-96-108-03-355   DENVER INDIAN CENTER2             1                0
  ETA       DINAP     16-FEB-96    06-96-117-03-355   NATIONAL INDIAN COUNCIL ON AGING2 2                0
  ETA       DINAP     26-MAR-96    06-96-125-03-355   DALLAS INTER-TRIBAL CENTER2       1            1,390
  ETA       DINAP     08-MAR-96    06-96-223-03-355   CHEROKEE NATION2                  2                0
  ETA       SPPD      31-JAN-96    18-96-003-03-380   HUMAN RESOURCES DEVELOP INST2     7              568
  ETA       SCSEP     28-MAR-96    18-96-009-03-360   GREEN THUMB INC2                  2                0
  ETA       SESA      17-JAN-96    06-96-001-03-325   PROPOSED FY96 RENTAL RATES2       4          194,815
  ETA       OJC       19-MAR-96    18-96-004-03-370   DENISON JOB CORPS CENTER2         1                0
  ETA       OJC       29-SEP-95    03-95-016-03-370   JOB CORPS SPAMIS5                 3                0
  OASAM     ADMIN     30-SEP-93    12-93-008-07-001   FY 92 CONSOLIDATED FIN STMTS1     2                0
  OASAM     ADMIN     15-JUL-95    12-95-004-07-001   FY 94 CONSOLIDATED FIN STMTS11    5                0
  OASAM     OPGM      30-SEP-91    18-91-035-07-710   OIC OF AMERICA10                  2           83,764
  OASAM     DAPP      04-MAR-96    17-96-002-07-730   DOL FITNESS ASSOCIATION2          2                0
  BLS       ADMIN     28-AUG-95    03-95-015-11-001   IMPROV RELIAB OF BLS/UIS DATA9    2                0
  OSEC      ASP       29-MAR-96    17-96-006-01-010   AIRLINE REHIRE PROGRAM12          1                0
  MULTI     ALLDOL    14-MAR-96    03-96-008-50-598   STATE OF DELAWARE7               12           87,106
  MULTI     ALLDOL    27-MAR-96    04-95-042-50-598   COMMONWEALTH OF KENTUCKY2         5          111,174
  MULTI     ALLDOL    19-JAN-96    04-96-005-50-598   STATE OF FLORIDA2                11            1,315
  MULTI     ALLDOL    30-NOV-96    05-96-103-50-598   INDIANA DEPT OF EMPLOYMENT7      12          191,550
  MULTI     ALLDOL    18-DEC-96    05-96-104-50-598   INDIANA DEPT OF EMPLOYMENT7      12           52,274

  Pending Indirect Cost Negotiations:

  ETA       OJC       10-SEP-92    18-92-027-03-370   LEO A. DALY6                      2         210,695
  ETA       OJC       04-MAR-94    18-94-009-03-370   LEO A. DALY6                      1         231,610
  ETA       OJC       04-MAR-94    18-94-010-03-370   LEO A. DALY6                      1         274,400
  ETA       OJC       04-MAR-94    18-94-011-03-370   LEO A. DALY6                      1         116,565
  OASAM     OPGM      04-NOV-94    18-95-001-07-735   HOME BUILDERS INSTITUTE6          1         628,158
  OASAM     OPGM      04-NOV-94    18-95-002-07-735   HOME BUILDERS INSTITUTE6          2         748,379
  OASAM     OPGM      11-NOV-94    18-95-003-07-735   HOME BUILDERS INSTITUTE6          7         353,479
  OASAM     OPGM      17-SEP-93    18-93-011-07-735   INTERNATIONAL MASONRY INST6       1          72,926



                                                            66
Semiannual Report to the Congress                                                                                April 1 - September 30, 1996



                    UNRESOLVED AUDITS OVER 6 MONTHS
                                       April 1, 1996 - September 30, 1996
               Date                   Audit                                                                     No. of         Questioned
Agency Program Issued                Report Number           Name of Audit/Auditee                              Rec.           Costs


OASAM      OPGM        31-MAR-95     18-95-012-07-735        MOTIVATION EDUCATION & TRAINING6 4                               38,523
OASAM      OPGM        20-JUL-95     18-95-014-07-735        CENTRAL VALLEY OPPORTU CENTER6 13                               294,590
OASAM      OPGM        18-AUG-95     18-95-018-07-735        NATIONAL COUNCIL ON THE AGING6 15                             1,764,588
OASAM      OPGM        27-AUG-94     18-94-021-07-735        WAVE INC6                        3                            1,206,216
OASAM      OPGM        20-SEP-95     18-95-025-07-735        ASOC NACIONAL PRO PER MAYORES6   6                               76,274
OASAM      OPGM        20-MAR-96     18-96-008-03-355        NATIVE AMERICAN INDIAN ASSOC6    4                              126,037



TOTAL AUDIT EXCEPTIONS:                                                                                       216        $16,552,507



Notes to “Unresolved Audits Over 6 Months”
1
  Recommendations were referred to the Deputy Secretary for resolution.
2
  Unresolved pending a response to the final audit report.
3
  The States have 180 days to issue a Final Management Decision. Program Agencies and OIG have an additional 180 days to accept the
    State-level decision.
4
  A revised final determination was received on August 2, 1996. We asked the Grant Officer to make additional changes.
5
  Pending completion of the Job Corps PY placements audit.
6
  Pending completion of indirect cost negotiations and closure.
7
  ETA Initial Management Decision issued, awaiting Final Management Decision.
8
  Pending completion of DOL study.
9
  The BLS section of the report is resolved. We are awaiting information from UI to resolve this report.
10
   The ETA section of the report is resolved. Unresolved questioned costs relate to Women’s Bureau finding.
11
   Recommendations were reviewed under the current FY 95 audit and remain unresolved.
12
   The DOL’s Office of Labor- Management Standards informed the OIG that Senator Kassebaum wrote DOL’s Secretary to 1) inform him
     that the proposed repeal of Section 43 of the Airline Deregulation Act was dropped and 2) urged proceeding with finalizing regulations.




                                                                      67
                                                                                       Page 1 of 3



Text only version

Final Audit Reports Issued by the OIG
FY 1995 UNEMPLOYMENT TRUST FUND                                ETA/UIS       12-96-017-03-315
ALLEGATIONS OF WRONGDOING WITHIN THE UIS                       ETA/UIS       17-96-004-03-315
FY 95 FECA SPECIAL FUND                                        ESA/FECA      12-96-014-04-431
FY 95 LONGSHORE AND HARBOR WORKER'S                            ESA/DLHWC     12-96-008-04-432
FY 95 DC WORKMEN'S COMPENSATION                                ESA/DLHWC     12-96-009-04-432
BLACK LUNG DISABILITY TRUST FUND FY 1995 FINANCIAL STATEMENT   ESA/CMWC      12-96-018-04-433
POTENTIAL $15.9 MILLION IN EXCESS FUNDS FROM THE PHILI.NAVAL   ETA/JTPA      03-96-009-03-340
NATL BUSINESS INSTITUTE,INC.AUDIT OF JTPA FUNDS, ATLANTA       ETA/JTPA      04-96-028-03-340
AUDIT OF CONVERSION GRANTS IN SOUTH CAROLINA                   ETA/JTPA      04-96-029-03-340
GA DEPT OF TECHNICAL AND ADULT EDUCATION                       ETA/JTPA      04-96-030-03-340
NATL BUSINESS INST, HEARTLAND PIC                              ETA/JTPA      04-96-031-03-340
SAN DIEGO CONSORTIUM & PRIVATE INDUSTRY COUNCIL                ETA/JTPA      18-96-010-03-340
OPPORTUNITIES INDUSTRIALIZATION OF AMERICA                     ETA/JTPA      18-96-012-03-340
NATIONAL ALLIANCE OF BUSINESS                                  ETA/JTPA      18-96-013-03-340
HUGHES AIRCRAFT COMPANY                                        ETA/JTPA      18-96-016-03-340
NATIVE AMERICAN EDUCATIONAL SERVICES COLLEGE                   ETA/DINAP     18-96-021-03-355
CALIFORNIA INDIAN MANPOWER CONSORTIUM, INC                     ETA/DINAP     18-96-022-03-355
AMERICAN INDIAN CENTER OF ARKANSAS                             ETA/DINAP     18-96-026-03-355
CITY OF BALTIMORE, OFFICE OF EMPLOYMENT DEVELOPMENT            ETA/YFC       18-96-017-03-356
REPORT ON QUALITY CONTROL REVIEW                               ETA/YFC       18-96-020-03-356
NATIONAL CAUCUS AND CENTER ON BLACK AGED, INC.                 ETA/DOWP      18-96-028-03-360
JOB CORPS COMBINING SCHEDULES OF EXPENSES                      ETA/OJC       12-96-004-03-370
BEST PRACTICES CAN IMPROVE JOB CORPS PERFORMANCE OVERALL       ETA/OJC       12-96-013-03-370
NATIONAL MARITIME UNION OF AMERICA                             ETA/OJC       18-96-014-03-370
DAU, WALKER AND ASSOCIATES                                     ETA/OJC       18-96-023-03-370
NATIONAL PLASTERING INDUSTRY'S JOINT APPRENTICESHIP TRUST FU   ETA/OJC       18-96-024-03-370
SCHOOL-TO-WORK OPPORTUNITIES PROGRAM IN ILLINOIS               ETA/STW       05-96-003-03-385
CAPITAL AREA TRAINING FOUNDATION                               ETA/STW       18-96-015-03-385
TEXAS COUNCIL ON WORKFORCE AND ECONOMIC COMPETITIVENESS        ETA/STW       18-96-025-03-385
TULARE COUNTY OFFICE OF EDUCATION                              ETA/STW       18-96-027-03-385
OSHA IMPROVE FEDERAL AGENCIES SAFETY & HEALTH PROGRAMS         OSHA/EN/PRG   17-96-008-10-105
THE DOL FOREIGN LABOR CERTIFICATION PROGRAM                    ETA/FLC       06-96-002-03-321
FY 1995 WAGE & HOUR PERFORMANCE MEASURES AUDIT                 ESA/WHD       12-96-011-04-420
MSHA FY 1995 PERFORMANCE MEASURES                              MSHA/ADMIN    06-96-003-06-001
AUDIT OF DOL'S VALUE ENGINEERING PROGRAM                       OASAM/DAPP    17-96-015-07-730
EVKO PRODUCTIONS, INC.                                         OASAM/OPGM    18-96-006-07-735
U.S. DEPARTMENT OF AGRICULTURE FOREST SERVICE                  OASAM/OPGM    18-96-011-07-735
REVIEW OF IMPREST FUND                                         OASAM/OFMS    09-96-003-07-751
FY 95 DOL CONSOLIDATED FIN STMT AUDIT                          CFO/ADMIN     12-96-007-13-001
DOL-FY 1995 MANAGEMENT ADVISORY COMMENTS                       CFO/ADMIN     12-96-016-13-001


Final Single Audit Reports
MILWAUKEE COUNTY, WISCONSIN                                    VETS/CONTR    05-96-210-02-201
ST. LOUIS, MISSOURI                                            VETS/CONTR    05-96-218-02-201
EASTERN BAND OF CHEROKEE INDIANS                               ETA/SESA      04-96-007-03-325
KENTUCKY DOMESTIC VIOLENCE                                     ETA/JTPA      04-96-010-03-340
FEDERATED STATES OF MICRONESIA (4683)                          ETA/JTPA      09-96-542-03-340
CENTER FOR INDEPENDENT LIVING                                  ETA/JTPA      09-96-561-03-340
ASOCIACION NACIONAL PRO PERSONAS                               ETA/JTPA      09-96-567-03-340
CITY OF LOS ANGELES                                            ETA/JTPA      09-96-572-03-340
WORKFORCE DEVELOPMENT SERVICES OF NORTHERN INDIANA             ETA/OSTP      05-96-118-03-350
PREP, INCORPORATED                                             ETA/OSTP      05-96-120-03-350
SENECA NATION OF INDIANS                                       ETA/DINAP     02-96-222-03-355
ABENAKI SELF-HELP ASSOCIATION, INC.                            ETA/DINAP     02-96-235-03-355
ABENAKI SELF-HELP ASSOCIATION, INC.                            ETA/DINAP     02-96-236-03-355
ABENAKI SELF-HELP ASSOCIATION, INC.                            ETA/DINAP     02-96-237-03-355
NATIVE AMERICAN CULTURAL CENTER, INC.                          ETA/DINAP     02-96-239-03-355
NATIVE AMERICAN CULTURAL CENTER, INC.                          ETA/DINAP     02-96-240-03-355
NATIVE AMERICAN CULTURAL CENTER, INC.                          ETA/DINAP     02-96-241-03-355
NATIVE AMERICAN CULTURAL CENTER, INC.                          ETA/DINAP     02-96-242-03-355
NATIVE AMERICAN CULTURAL CENTER, INC.                          ETA/DINAP     02-96-243-03-355
NORTH AMERICAN INDIAN CENTER OF BOSTON, INC.                   ETA/DINAP     02-96-244-03-355
POWHATAN RENAPE NATION                                         ETA/DINAP     02-96-246-03-355
THE SENECA NATION OF INDIANS                                   ETA/DINAP     02-96-247-03-355
NATIVE AMERICAN COMMUN.SVC OF ERIE&NIAGARA COUNTIES, INC.      ETA/DINAP     02-96-254-03-355
CENTRAL MAINE INDIAN ASSOCIATION, INC.                         ETA/DINAP     02-96-259-03-355
CENTRAL MAINE INDIAN ASSOCIATION, INC.                         ETA/DINAP     02-96-260-03-355
CENTRAL MAINE INDIAN ASSOCIATION, INC.                         ETA/DINAP     02-96-261-03-355
RHODE ISLAND INDIAN COUNCIL, INC.                              ETA/DINAP     02-96-264-03-355
AMERICAN INDIAN COMMUNITY HOUSE, INC.                          ETA/DINAP     02-96-265-03-355
AMERICAN INDIAN COMMUNITY HOUSE, INC.                          ETA/DINAP     02-96-266-03-355
AMERICAN INDIAN COMMUNITY HOUSE, INC.                          ETA/DINAP     02-96-267-03-355
NORTH AMERICAN INDIAN CENTER OF BOSTON, INC.                   ETA/DINAP     02-96-268-03-355
SEMINOLE TRIBE OF FLORIDA                                      ETA/DINAP     04-96-009-03-355




http://www.oig.dol.gov/public/reports/sar/sar0996/oa11.htm                                10/24/03
                                                                                   Page 2 of 3



TENNESSEE OPPORTUNITY PROGRAMS                               ETA/DINAP   04-96-013-03-355
MISSISSIPPI BAND OF CHOCTAW                                  ETA/DINAP   04-96-027-03-355
WISCONSON INDIAN CONSORTIUM                                  ETA/DINAP   05-96-110-03-355
NORTH AMERICAN INDIAN CULTURAL CENTER, INC.                  ETA/DINAP   05-96-112-03-355
NEBRASKA INDIAN INTER-TRIBAL DEVELOPMENT CORPORATION         ETA/DINAP   05-96-113-03-355
AMERICAN INDIAN COUNCIL, INC.                                ETA/DINAP   05-96-119-03-355
STOCKBRIDGE-MUNSEE COMMUNITY                                 ETA/DINAP   05-96-211-03-355
FOND DU LAC RESERVATION                                      ETA/DINAP   05-96-212-03-355
MENOMINEE TRIBE OF WISCONSIN                                 ETA/DINAP   05-96-213-03-355
SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS                   ETA/DINAP   05-96-214-03-355
INTER-TRIBAL COUNCIL OF MICHIGAN                             ETA/DINAP   05-96-215-03-355
MILLE LACS BAND OF CHIPPEWA INDIANS                          ETA/DINAP   05-96-216-03-355
RED LAKE BAND OF CHIPPEWA INDIANS                            ETA/DINAP   05-96-219-03-355
WHITE EARTH RESERVATION                                      ETA/DINAP   05-96-220-03-355
BOIS FORTE RESERVATION TRIBAL COUNCIL                        ETA/DINAP   05-96-221-03-355
SAC AND FOX TRIBE OF THE MISSISSIPPI IN IOWA                 ETA/DINAP   05-96-223-03-355
COMANCHE INDIAN TRIBE                                        ETA/DINAP   06-96-231-03-355
TAOS PUEBLO CENTRAL MANAGEMENT SYSTEM                        ETA/DINAP   06-96-232-03-355
CROW TRIBE OF INDIANS                                        ETA/DINAP   06-96-233-03-355
CROW TRIBE OF INDIANS                                        ETA/DINAP   06-96-234-03-355
UTE MOUNTAIN UTE TRIBE                                       ETA/DINAP   06-96-235-03-355
EIGHT NORTHERN INDIAN PUEBLOS COUNCIL, INC.                  ETA/DINAP   06-96-238-03-355
BLACKFEET TRIBE OF THE BLACKFEET RESERVATION                 ETA/DINAP   06-96-239-03-355
UNITED TRIBES TECHNICAL COLLEGE                              ETA/DINAP   06-96-240-03-355
UNITED TRIBES TECHNICAL COLLEGE                              ETA/DINAP   06-96-241-03-355
UNITED TRIBES TECHNICAL COLLEGE                              ETA/DINAP   06-96-242-03-355
ALAMO NAVAJO SCHOOL BOARD, INC.                              ETA/DINAP   06-96-244-03-355
UNITED TRIBES TECHNICAL COLLEGE                              ETA/DINAP   06-96-245-03-355
UNITED TRIBES TECHNICAL COLLEGE                              ETA/DINAP   06-96-246-03-355
OTOE-MISSOURIA TRIBE OF INDIANS                              ETA/DINAP   06-96-247-03-355
SOUTHERN UTE INDIAN TRIBE                                    ETA/DINAP   06-96-250-03-355
INTER-TRIBAL COUNCIL, INC.                                   ETA/DINAP   06-96-251-03-355
KIOWA TRIBE OF OKLAHOMA                                      ETA/DINAP   06-96-253-03-355
UTE MOUNTAIN UTE TRIBE                                       ETA/DINAP   06-96-254-03-355
UNITED SIOUX TRIBES DEVELOPMENT CORPORATION                  ETA/DINAP   06-96-255-03-355
CITIZEN BAND POTAWATOMI INDIANS OF OKLAHOMA                  ETA/DINAP   06-96-256-03-355
PUEBLO OF LAGUNA                                             ETA/DINAP   06-96-258-03-355
DEVILS LAKE SIOUX TRIBE                                      ETA/DINAP   06-96-259-03-355
CHEYENNE-ARAPAHO TRIBES OF OKLAHOMA                          ETA/DINAP   06-96-260-03-355
CONFEDERATED TRIBES-COLVILLE RESERVATION                     ETA/DINAP   09-96-540-03-355
CONFEDERATED TRIBES OF SILETZ OF OREGON                      ETA/DINAP   09-96-541-03-355
METLAKATLA INDIAN COMMUNITY                                  ETA/DINAP   09-96-545-03-355
TOHONO O'ODHAM NATION                                        ETA/DINAP   09-96-551-03-355
THE HOPI TRIBE                                               ETA/DINAP   09-96-552-03-355
COOK INLET TRIBAL COUNCIL                                    ETA/DINAP   09-96-553-03-355
SHOSHONE-BANNOCK TRIBES, INC. (4691)                         ETA/DINAP   09-96-555-03-355
METAKATLA INDIAN COMMUNITY                                   ETA/DINAP   09-96-556-03-355
TANANA CHIEFS CONFERENCE, INC.                               ETA/DINAP   09-96-557-03-355
NEZ PERCE TRIBE                                              ETA/DINAP   09-96-558-03-355
KAWERAK, INC.                                                ETA/DINAP   09-96-563-03-355
CALIFORNIA INDIAN MANPOWER CONSORTIUM (4705)                 ETA/DINAP   09-96-564-03-355
ALU LIKE, INC.                                               ETA/DINAP   09-96-565-03-355
INTER-TRIBAL COUNCIL OF NEVADA                               ETA/DINAP   09-96-566-03-355
SHOSHONE-PAUITE TRIBES OF THE DUCK VALLEY RES                ETA/DINAP   09-96-569-03-355
YA-KA-AMA INDIAN EDU. & DEVELOPMENT                          ETA/DINAP   09-96-570-03-355
LAS VEGAS INDIAN CENTER                                      ETA/DINAP   09-96-571-03-355
COLORADO RIVER INDIAN TRIBES (4708)                          ETA/DINAP   09-96-573-03-355
CITY OF NEW YORK SINGLE AUDIT                                ETA/YFC     02-96-257-03-356
GUILFORD NATIVE AMERICAN ASSOCIATION, INC                    ETA/YFC     04-96-026-03-356
INDIANA FAMILY AND SOCIAL SERVICES ADMINISTRATION            ETA/DOWP    05-96-224-03-360
MICHIGAN DEPARTMENT OF MANAGEMENT AND BUDGET                 ETA/DOWP    05-96-225-03-360
ARKANSAS DEPARTMENT OF HUMAN SERVICES                        ETA/DOWP    06-96-230-03-360
NEW MEXICO STATE AGENCY ON AGING                             ETA/DOWP    06-96-243-03-360
NEW ENGLAND FARM WORKERS' COUNCIL, INC.                      ETA/DSFP    02-96-231-03-365
NEW ENGLAND FARM WORKERS' COUNCIL, INC.                      ETA/DSFP    02-96-232-03-365
RURAL OPPORTUNITIES INC. AND AFFILIATES                      ETA/DSFP    02-96-252-03-365
TELAMON CORPORATION                                          ETA/DSFP    04-96-020-03-365
METROLINA NATIVE AMERICAN ASSOC., INC.                       ETA/DSFP    04-96-021-03-365
DELTA HOUSING DEVELOPMENT                                    ETA/DSFP    04-96-022-03-365
SER CORPORATION                                              ETA/DSFP    05-96-111-03-365
NAF MULTICULTURAL HUMAN DEVELOPMENT CORPORATION              ETA/DSFP    05-96-115-03-365
ILLINOIS MIGRANT COUNCIL                                     ETA/DSFP    05-96-117-03-365
TIERRA DEL SOL HOUSING CORPORATION                           ETA/DSFP    06-96-126-03-365
ROCKY MOUNTAIN SER/JOBS FOR PROGRESS, INC.                   ETA/DSFP    06-96-127-03-365
HOME EDUCATION LIVELIHOOD PROGRAM, INC.                      ETA/DSFP    06-96-128-03-365
MOTIVATION, EDUCATION AND TRAINING, INC.                     ETA/DSFP    06-96-129-03-365
IDAHO MIGRANT COUNCIL                                        ETA/DSFP    09-96-546-03-365
PPEP, INC. (4689)                                            ETA/DSFP    09-96-549-03-365
CENTER FOR EMPLOYMENT TRAINING                               ETA/DSFP    09-96-554-03-365
MAUI ECONOMIC OPPORTUNITY, INC.                              ETA/DSFP    09-96-568-03-365
PUERTO RICO VOLUNTEER YOUTH CORPS                            ETA/OJC     02-96-208-03-370




http://www.oig.dol.gov/public/reports/sar/sar0996/oa11.htm                            10/24/03
                                                                                       Page 3 of 3



PUERTO RICO VOLUNTEER YOUTH CORPS                            ETA/OJC         02-96-209-03-370
PUERTO RICO VOLUNTEER YOUTH CORPS                            ETA/OJC         02-96-248-03-370
PUERTO RICO VOLUNTEER YOUTH CORPS                            ETA/OJC         02-96-249-03-370
EDUCATION DEVELOPMENT CENTER, INC.                           ETA/OPR         02-96-253-03-380
FOUNTAIN HOUSE, INC.                                         ETA/OPR         02-96-255-03-380
FOUNTAIN HOUSE, INC.                                         ETA/OPR         02-96-256-03-380
FOX CITIES CHAMBER FOUNDATION INC.                           ETA/STW         05-96-114-03-385
NEW MEXICO ENVIRONMENT DEPARTMENT                            OSHA/OSHAG      06-96-237-10-101
WELLESLEY COLLEGE                                            BLS/BLSG        02-96-262-11-111
DEPARTMENT OF LABOR AND HUMAN RESOURCES                      MULTI/ALLDOL    02-96-210-50-598
DEPARTMENT OF LABOR AND HUMAN RESOURCES                      MULTI/ALLDOL    02-96-211-50-598
DEPARTMENT OF LABOR AND HUMAN RESOURCES                      MULTI/ALLDOL    02-96-212-50-598
STATE OF CONNECTICUT                                         MULTI/ALLDOL    02-96-216-50-598
STATE OF NEW JERSEY                                          MULTI/ALLDOL    02-96-220-50-598
STATE OF MAINE                                               MULTI/ALLDOL    02-96-221-50-598
COMMONWEALTH OF MASSACHUSETTS                                MULTI/ALLDOL    02-96-238-50-598
STATE OF NEW YORK                                            MULTI/ALLDOL    02-96-245-50-598
NATIONAL BUREAU OF ECONOMIC RESEARCH, INC.                   MULTI/ALLDOL    02-96-250-50-598
STATE OF CONNECTICUT                                         MULTI/ALLDOL    02-96-251-50-598
U.S. VIRGIN ISLANDS AGREED-UPON PROCEDURES                   MULTI/ALLDOL    02-96-263-50-598
STATE OF TENNESSEE                                           MULTI/ALLDOL    04-96-003-50-598
STATE OF KENTUCKY                                            MULTI/ALLDOL    04-96-004-50-598
STATE OF SOUTH CAROLINA                                      MULTI/ALLDOL    04-96-006-50-598
STATE OF NORTH CAROLINA                                      MULTI/ALLDOL    04-96-012-50-598
STATE OF ALABAMA                                             MULTI/ALLDOL    04-96-019-50-598
ILLINOIS DEPARTMENT OF EMPLOYMENT SECURITY                   MULTI/ALLDOL    05-96-116-50-598
WISCONSIN, STATE OF                                          MULTI/ALLDOL    05-96-209-50-598
OHIO STATE UNIVERSITY                                        MULTI/ALLDOL    05-96-217-50-598
STATE OF OHIO                                                MULTI/ALLDOL    05-96-222-50-598
NEW MEXICO DEPARTMENT OF LABOR                               MULTI/ALLDOL    06-96-104-50-598
STATE OF UTAH                                                MULTI/ALLDOL    06-96-236-50-598
STATE OF WYOMING                                             MULTI/ALLDOL    06-96-248-50-598
STATE OF COLORADO                                            MULTI/ALLDOL    06-96-249-50-598
STATE OF LOUISIANA                                           MULTI/ALLDOL    06-96-252-50-598
STATE OF OKLAHOMA                                            MULTI/ALLDOL    06-96-257-50-598
GOVERNMENT OF GUAM                                           MULTI/ALLDOL    09-96-543-50-598
GOVERNMENT OF GUAM                                           MULTI/ALLDOL    09-96-544-50-598
STATE OF ALASKA (4655)                                       MULTI/ALLDOL    09-96-547-50-598
STATE OF ARIZONA (4645)                                      MULTI/ALLDOL    09-96-548-50-598
STATE OF WASHINGTON (4637)                                   MULTI/ALLDOL    09-96-550-50-598
STATE OF CALIFORNIA (4648)                                   MULTI/ALLDOL    09-96-559-50-598
STATE OF ARIZONA (4654)                                      MULTI/ALLDOL    09-96-560-50-598
HI. DEPT. OF LABOR & INDUST. REL. (4694)                     MULTI/ALLDOL    09-96-562-50-598
CITY OF LOUISVILLE                                           OT AGY/OT AGY   04-96-017-98-599
ORANGE COUNTY FLORIDA                                        OT AGY/OT AGY   04-96-025-98-599




http://www.oig.dol.gov/public/reports/sar/sar0996/oa11.htm                                10/24/03
